<html>
<title> - THE FUTURE OF THE NATIONAL MALL</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                             THE FUTURE OF

                           THE NATIONAL MALL
=======================================================================



                           OVERSIGHT HEARING

                               before the

                SUBCOMMITTEE ON NATIONAL PARKS, FORESTS

                            AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES

                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                          Friday, June 1, 2012

                               __________

                           Serial No. 112-114

                               __________

       Printed for the use of the Committee on Natural Resources



         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
74-442                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            EDWARD J. MARKEY, MA, Ranking Democratic Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      Betty Sutton, OH
Scott R. Tipton, CO                  Niki Tsongas, MA
Paul A. Gosar, AZ                    Pedro R. Pierluisi, PR
Raul R. Labrador, ID                 John Garamendi, CA
Kristi L. Noem, SD                   Colleen W. Hanabusa, HI
Steve Southerland II, FL             Paul Tonko, NY
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Jon Runyan, NJ
Bill Johnson, OH
Mark Amodei, NV

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
               Jeffrey Duncan, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Doug Lamborn, CO                     Rush D. Holt, NJ
Paul C. Broun, GA                    Martin Heinrich, NM
Mike Coffman, CO                     Betty Sutton, OH
Tom McClintock, CA                   Niki Tsongas, MA
David Rivera, FL                     John Garamendi, CA
Scott R. Tipton, CO                  Vacancy
Raul R. Labrador, ID                 Edward J. Markey, MA, ex officio
Kristi L. Noem, SD 
Mark Amodei, NV
Doc Hastings, WA, ex officio

                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Friday, June 1, 2012.............................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     1
        Prepared statement of....................................     2
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     3
        Prepared statement of....................................     4

Statement of Witnesses:
    Bryant, L. Preston, Jr., Chairman, National Capital Planning 
      Commission.................................................    13
        Prepared statement of....................................    15
    Luebke, Thomas E., Secretary, U.S. Commission of Fine Arts...    10
        Prepared statement of....................................    12
    Shubow, Justin, President and Chairman, National Civic Art 
      Society....................................................    16
        Prepared statement of....................................    18
    View, Dr. Jenice L., Assistant Professor, George Mason 
      University.................................................    20
        Prepared statement of....................................    22
    Whitesell, Stephen E., Regional Director, National Capital 
      Region, National Park Service, U.S. Department of the 
      Interior...................................................     5
        Prepared statement of....................................     7

Additional materials supplied:
    Farr, Hon. Sam, a Representative in Congress from the State 
      of California, Statement submitted for the record..........    36
                                     



       OVERSIGHT HEARING ON ``THE FUTURE OF THE NATIONAL MALL.''

                              ----------                              


                          Friday, June 1, 2012

                     U.S. House of Representatives

        Subcommittee on National Parks, Forests and Public Lands

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:07 a.m. in 
Room 1334, Longworth House Office Building, Hon. Rob Bishop 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Bishop, Tipton, Noem, Grijalva.
    Mr. Bishop. The Committee hearing will come to order. The 
Chair notes the presence of a quorum plus.
    The Subcommittee on National Parks, Forests and Public 
Lands is meeting today to conduct an oversight hearing on the 
future of the National Mall.
    Under the rules, opening statements are limited to the 
Chairman and Ranking Member. However, I ask unanimous consent 
to include any other Members' opening statements in the hearing 
record if submitted to the Clerk by the close of business 
today.
    Hearing no objection, it will be so ordered.

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Bishop. The National Mall is America's front yard. 
Actually, it is the back yard. Our guides have to say we have 
an East front and a West front, which is a nice way of saying 
the steps are the East, the left side is the back, which means 
when the Capitol was built, the East was the front because 
everyone knew Washington, D.C. would grow to the East, which 
means this Congress has been wrong from our very inception.
    The National Mall is really our back yard but it stretches 
from the Capitol to the Lincoln Memorial and is the home of the 
Washington Monument, World War II and Vietnam Memorials, as 
well as the Smithsonian Museums.
    It also includes the area from the White House to the 
Jefferson Memorial, and millions of Americans will visit these 
historic sites every year, and it is essential that the beauty 
and dignity of these grounds be protected and preserved for the 
future.
    Each year Congress has to consider potential changes and 
additions to the Mall and deliberate on how each proposal would 
affect this important resource and its finite capacity.
    In recent months, we have seen exactly why it is important 
to advance memorials with caution. The memorial to President 
Eisenhower has gained significant attention, and in my opinion, 
the process still has failed to achieve a design with a 
consensus of support.
    That particular situation has worked out. It is my hope 
that we can learn from the process, what was done well, and 
what we as a committee of jurisdiction can do to legislate a 
better process in the future.
    This Committee must also consider the pace at which new 
memorials have proliferated in the past several decades.
    We have to evaluate each proposal on its merits, and I 
believe Congress has done that in the past.
    However, taken on their own, there are probably thousands 
of ideas that make sense. The Vietnam Memorial is very popular 
and most people find it inspiring. I doubt at the time Congress 
approved the Vietnam Memorial, they considered the fact that it 
would lead to a Korean Memorial, subsequently to an enormous 
World War II Memorial, and now that has been built, people are 
asking why is there not a national World War I Memorial.
    Again, it is not to say that each of these are not 
meritorious on their own, but the Committee must take a broader 
view and consider the future generations and their heroes and 
their historical events that they want to be commemorated, 
before we ever devour the remaining space in a zealous attempt 
to immortalize our generation.
    Where do we draw the line between elements that are 
appropriate for the Mall and what has become almost a 
Gettysburg National Battlefield.
    This hearing will provide an opportunity to discuss what we 
can do better when it comes to the future of our National Mall.
    We have invited witnesses who should be able to provide us 
with a perspective on the care and the planning of this iconic 
landscape.
    I would especially welcome insight and suggestions as to 
what this Committee and this Congress can do better to preserve 
the grandeur of our National Mall, and ensure that it continues 
to be hallow grounds where the greatest heroes of our blessed 
land are honored.
    Every year, we have more and more proposals for additions. 
We have to figure out the matrix on how we will go forward in 
that area. For these reasons, I think it is our duty, and I am 
sure all my colleagues will agree, that we have to preserve a 
very prominent and fitting site on the Mall for the memorial to 
Ronald Wilson Reagan.
    With that, I conclude my statement. Mr. Grijalva?
    [The prepared statement of Mr. Bishop follows:]

           Statement of The Honorable Rob Bishop, Chairman, 
        Subcommittee on National Parks, Forests and Public Lands

    The National Mall is America's front yard. It stretches from the 
Capitol building to the Lincoln Memorial and is home to the Washington 
Monument, the World War II and Vietnam Memorials, and the Smithsonian 
Museums. We can also include the vast area from the White House to the 
Jefferson Memorial. Millions of Americans visit these historic sites 
every year and it is essential that the beauty and dignity of this 
hallowed ground be protected and preserved as we plan for its future.
    Each year Congress must consider potential changes and additions to 
the Mall and deliberate how each proposal could affect this important 
resource and its finite capacity. In recent months we have seen exactly 
why it is important to advance memorials with caution. The memorial to 
President Eisenhower has gained significant attention and in my 
opinion, the process has failed to achieve a design with a consensus of 
support. As that particular situation is worked out, it is my hope that 
we can learn from that process, what was done well, and what we, as the 
committee of jurisdiction, can do to legislate a better process in the 
future.
    This committee must also consider the pace at which new memorials 
have proliferated in the past several decades. We have to evaluate each 
proposal on its own merits, and I believe Congress has done that in the 
past. However, taken on their own, there are probably thousands of 
ideas that make sense. The Vietnam Memorial is very popular and most 
people find it very inspiring. I doubt at the time Congress approved 
the Vietnam Memorial, they considered the fact that it would lead to a 
Korean War Memorial, and subsequently, that would be used as 
justification for an enormous World War II Memorial. And now that all 
those have been built, some have asked, `why isn't there a World War I 
Memorial?'
    Again, it isn't to say that each of these isn't meritorious on its 
own, but this committee must take a broader view and consider the 
future generations, and their heroes, and their historic events, that 
they may want to commemorate, before we devour the remaining space in a 
zealous attempt to immortalize our generation. Where do we draw to line 
between elements appropriate for the Mall and what has become of 
Gettysburg National Battlefield?
    This hearing will provide an opportunity to discuss what we can do 
better when it comes to the future of our National Mall. We have 
invited witnesses who should be able to provide us with an inside 
prospective to the care and planning for this iconic landscape. I would 
especially welcome insights and suggestions as to what this committee 
and this Congress can do better to preserve the grandeur of our 
National Mall and ensure that it continues to be hallowed ground where 
the greatest heroes of our blessed land our honored.
    For all these reasons, it is our special duty, as I'm sure all my 
colleagues will agree, to preserve a very prominent and fitting site on 
the Mall for the memorial to President Ronald Wilson Reagan.
                                 ______
                                 

   STATEMENT OF THE HON. RAUL GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you, Mr. Chairman. Good morning. Good 
morning to our guests. I want to thank all the witnesses for 
taking the time to come and testify before us today.
    Today's hearing's title is ``The Future of the National 
Mall.'' I am glad my colleagues have decided to address this 
topic. It is always good to revisit our previous successes.
    There is a lot to talk about on this topic. I look forward 
to this morning's conversation.
    The National Mall is where we recognize our triumphs and 
also our failures. It is a place to gather to remember the 
fallen heroes of our nation, to celebrate culture, to recreate 
and to learn.
    The educational role of the Mall is often forgotten by 
Congress, and I hope we can discuss that as well today.
    Every year thousands of visitors including students from 
across the country and international tourists travel to 
Washington, D.C. to learn more about this great nation.
    Often the stories and narratives they learn from our 
memorials and public spaces are not entirely true. Some of our 
memorials even perpetuate myths.
    For example, Lincoln saved the nation. Jefferson created 
the Declaration of Independence. Roosevelt brought the country 
out of a great depression.
    None of these are lies, only a one dimensional story 
emerges, a story that idolizes a series of events rather than 
acknowledges the humanity of the person.
    The public space is not only where history is retold, but 
where history actually happened.
    The National Mall is a living, vibrant history book, where 
tales are told and the power of the place moves us continuously 
toward understanding the deeper side of our collective history 
as a country.
    A French-born surveyor designed a public space to signify 
the Democratic birth of a country. Numerous soldiers camped on 
the lawn to make a statement to lawmakers about their plight.
    First ladies hosted an Easter morning outdoor concert. An 
African American preacher speaking in front of the Lincoln 
Memorial ignited a nation.
    These stories are among the many that make up the story of 
our country, where democracy survives and continues to thrive, 
and our National Mall is a place where we can continue to learn 
from the past and build for the future.
    I look forward to hearing more from our witnesses about 
their vision for our nation's back yard, and with that, I yield 
back, Mr. Chairman.
    [The prepared statement of Mr. Grijalva follows:]

     Statement of The Honorable Raul M. Grijalva, Ranking Member, 
        Subcommittee on National Parks, Forests and Public Lands

    Mr. Chairman, Good Morning to our guests and my fellow committee 
Members. I want to thank our witnesses for testifying today.
    Today's hearing title is the ``Future of the National Mall.'' I am 
glad that my colleagues have broached this topic.
    It is always good to revisit our previous successes. This topic has 
numerous tentacles for conversation.
    The National Mall is where we recognize our triumphs and failures.
    It is a place to gather publicly, to remember the fallen heroes of 
our nation, to celebrate culture, to play kickball, and to learn.
    The last aspect of the Mall I highlighted, the educational one, is 
often forgotten by Congress.
    However, thousands of students travel for school field trips every 
year and many Mall visitors try to learn something.
    But, the stories float around that are not entirely true and our 
memorials sometimes perpetuate myths.
    For example; Lincoln saved the nation; Jefferson created the 
Declaration of Independence; Roosevelt brought the country out of the 
Great Depression.
    While none of these are lies, only a one-dimensional story emerges: 
A story that idolizes a series of events rather than acknowledges the 
humanity of the person.
    This public space is not only where history is retold, but where 
history actually happened.
    The National Mall is a living, vibrant history book, where tales 
are told and the power of place moves us continuously towards 
understanding a deeper side of our collective history.
    A French-born surveyor designed a public space to signify the 
democratic birth of a country.
    Numerous soldiers camped on the lawn to make a statement to 
lawmakers about their plight.
    A first lady hosted an Easter morning outdoor concert for an 
amazing contralto.
    A black preacher ignited a nation speaking in front of the Lincoln 
Memorial.
    These stories are among the many that provide the story of our 
country, where democracy survives and thrives as we move forward.
    I look forward to hearing more from our witnesses about their 
vision for our nation's backyard.
    Thank you again for your testimony.
                                 ______
                                 
    Mr. Bishop. Thank you, Mr. Grijalva.
    Our panel of witnesses today include officials from the 
agencies and commissions who are responsible for overseeing the 
Mall, along with two distinguished private citizens who will 
share their expertise with us.
    On the panel is Mr. Stephen Whitesell, the Regional 
Director for the National Capital Region of the National Park 
Service.
    We also have Mr. Tom Luebke, the Secretary of the U.S. 
Commission of Fine Arts.
    Mr. Preston Bryant, who is the Chairman of the National 
Capital Planning Commission.
    Mr. Justin Shubow, President and Chairman of the National 
Civic Art Society, and Dr. Jenice View from Washington, D.C.
    I hope I did not butcher those names too badly.
    We appreciate you coming here. I think you have all been 
here and know the drill. The lights in front of you and the 
timer in front of you tells you how much you have.
    We are asking you to confine your oral presentations to 
five minutes, so the green light means everything is going. 
When you hit the yellow light, it is like when you are driving 
and you speed up very quickly so that when you hit the red 
light, you stop.
    With that, Mr. Whitesell, if you would like to start off, 
we'd appreciate hearing your testimony.

STATEMENT OF STEPHEN E. WHITESELL, REGIONAL DIRECTOR, NATIONAL 
             CAPITAL REGION, NATIONAL PARK SERVICE

    Mr. Whitesell. Mr. Chairman, it is my pleasure to appear 
before you today to discuss the future of the National Mall.
    I would like to summarize my statement and submit my full 
testimony for the record.
    The National Mall is a preeminent designed historical 
landscape, and is home to some of the great symbols of our 
country.
    My summary will focus on the process for locating memorials 
on the Mall and also on some current projects to improve the 
Mall.
    Proposals for new memorials in the District of Columbia are 
governed by the Commemorative Works Act. The procedures, as set 
forth in this law, are built on four basic tenets. One, it 
delegates decision making of the siting and design of memorials 
to those agencies already legislatively charged with planning 
and urban design review authority.
    Two, it precludes commemorations prior to 25 years from the 
date of the death of an individual or the death of the last 
surviving member of a group, or the occurrence of an event in 
order to maintain the appropriate historical perspective.
    Three, it limits commemoration of military subjects to 
major conflicts or branches of Service with the intention that 
most future military memorials would be placed on military 
lands.
    Four, it addresses where memorials can be built.
    In 2003, Congress determined that the Mall is a completed 
work of civic art and established the reserve, an area in which 
no new memorials would be permitted.
    At that time, there were 31 memorials already in place or 
approved on the Mall. Congress has twice made exceptions to the 
prohibition of new memorials, museums and visitor centers in 
the reserve, in 2003, for the National Museum of African 
American History and Culture, and in 2009, for a plaque 
honoring Senator Robert Dole at the World War II Memorial.
    In addition, the Vietnam Veterans Visitor Center was 
authorized in the same law which established the reserve.
    There are currently 12 bills before Congress to establish 
eight new commemorative works. The National Capital Memorial 
Advisory Commission has studied these bills as well over 70 
other memorial bills introduced since 1986.
    At various times, the Commission has recommended amendments 
to the bills or locating the memorial on lands not covered by 
the Commemorative Works Act or commemorating the subject in a 
manner other than a traditional memorial.
    Turning to operational matters, the demands on the National 
Mall are constant and wide ranging. Each year there are over 
3,000 applications for public gathering's, resulting in more 
than 14,000 event days of use.
    The resulting wear and tear damages turf and trees, 
impacting the appearance of the historic landscape and 
providing continual maintenance challenges.
    The National Park Service is responsible for responding to 
the ever increasing visitation with a more sustainable, 
healthier landscape and improved facilities.
    Towards this end, the National Park Service developed the 
National Mall plan which lays out a blueprint to rehabilitate 
the Mall, accommodate high levels of diverse use, protect the 
historic symbolic landscape, improve energy efficiency in park 
operations, and better meet the needs of millions of visitors.
    Implementing the plan will require a reinvestment estimated 
at $600- to $650 million, which we expect to achieve through a 
combination of donations and public funding.
    A major fund raising campaign is being undertaken by the 
non-profit partner, the Trust for the National Mall.
    Several projects have been funded through the American 
Recovery and Reinvestment Act, including the D.C. War Memorial, 
the Lincoln Memorial Reflecting Pool, the Thomas Jefferson 
Memorial sea wall rehabilitation, and phase one of the Army 
Corps of Engineers' Potomac Park levy project.
    Other projects include phase one of the Mall turf 
reconstruction project and a Constitution Avenue reconstruction 
project, from 15th to 23rd Street.
    The turf projects include drainage systems, water 
collection systems, irrigation and replacing the turf with high 
tech sod and compaction resistant soil with granite curbs.
    Projects that are currently in the design stage include 
additional phases of the Mall turf reconstruction project, the 
Mall walkway study, the earthquake repairs to the Washington 
Monument, the World War II Memorial slurry wall rehabilitation 
to address leaks and prevent damages to the Memorial, and the 
Washington Monument screening facility, and Thomas Jefferson 
Memorial perimeter security study.
    Most recently, the Trust sponsored a National Mall design 
competition for three sites in the National Mall plan, the 
Sylvan Theater, Constitution Gardens, and Union Square.
    The NPS and Architect of the Capitol will use the ideas 
generated in the competition to develop specific plans to 
redevelop the sites.
    The National Park Service has recently taken steps to 
improve transportation for visitors, contracting with various 
tour operators to provide services in and around Arlington 
National Cemetery and the Mall.
    In addition, the National Park Service is working with 
Capital Bikeshare in the District of Columbia to increase 
access to rental bicycles around the National Mall.
    Mr. Chairman, this concludes my statement. I would be 
pleased to respond to any questions you or other members of the 
Subcommittee may have.
    [The prepared statement of Mr. Whitesell follows:]

Statement of Stephen E. Whitesell, Regional Director, National Capital 
     Region, National Park Service, U.S. Department of the Interior

    Mr. Chairman and members of the subcommittee, it is my pleasure to 
appear before you today to discuss the future of the National Mall.
    The National Mall is a preeminent designed historic landscape that 
extends from the grounds of the United States Capitol west to the 
Potomac River, and from the Jefferson Memorial north to Constitution 
Avenue. It is home to some of the greatest symbols of our country: the 
Washington Monument, the Lincoln Memorial, the Jefferson Memorial, the 
Vietnam Veterans Memorial, the Martin Luther King, Jr. Memorial, the 
Korean War Veterans Memorial, and the World War II Memorial.
Authorizing a Memorial under the Commemorative Works Act
    The Congress provided specific requirements for establishing 
memorials on federal lands in the District of Columbia administered by 
the National Park Service (NPS) and the General Services Administration 
(GSA) through the Commemorative Works Act (CWA), which was initially 
passed in 1986, and subsequently amended, most recently in 2003. 
Typically, a group seeking to commemorate an individual, group, or 
event, works with a member of Congress to pass legislation that 
authorizes the memorial and designates a memorial sponsor, which would 
be responsible for planning, fundraising, design, and construction of 
the memorial. The CWA grants 7 years for the memorial sponsor to gain 
all necessary approvals, raise full funding including an amount for 
future catastrophic maintenance, and obtain a construction permit from 
the NPS. This authority may be extended for three years by the NPS if 
all design approvals have been granted and 75% of the necessary funding 
has been raised, or by Congress enacting a law extending the authority 
for a period set in that law.
    Since the advent of the CWA, over 100 bills have been introduced 
for memorials and 27 of those have been enacted. Of the 27 memorials, 
17 have been completed, 5 are currently in progress, and 5 were not 
established before their authorization lapsed.
    The CWA has proven to be an effective means of evaluating memorial 
proposals and directing the development of those memorials that are 
authorized. The procedures and guidelines set forth in the CWA are 
built on four basic tenets:
        <bullet>  The CWA delegated decision-making of the siting and 
        design of memorials to those agencies already legislatively 
        charged with planning and urban design review authority--the 
        Secretary of the Interior (Secretary) or the GSA Administrator 
        (Administrator), the National Capital Planning Commission 
        (NCPC), and the Commission of Fine Arts (CFA). The CWA also 
        established the National Capital Memorial Advisory Commission 
        (NCMAC), which includes representatives of the NPS, the CFA, 
        the NCPC, the Mayor of the District of Columbia, GSA, the 
        American Battle Monuments Commission (ABMC), the Architect of 
        the Capitol (AOC), and the Department of Defense (DOD). The 
        NCMAC comments to the authorizing committees of Congress 
        regarding proposed memorials and legislation pertaining to 
        memorials, such as bills to extend a memorial's authorization, 
        and reviews site and design proposals for authorized memorials.
        <bullet>  To maintain the appropriate perspective on the 
        historic importance of the subject of a memorial, the CWA 
        precludes commemorations prior to 25 years from the date of the 
        death of an individual, or the death of the last surviving 
        member of a group, or the occurrence of an historic event.
        <bullet>  The CWA outlines the eligible subject areas for these 
        memorials to be sited on the lands covered by the CWA and 
        limits commemoration of military subjects to major conflicts or 
        branches of service with the intention that most future 
        military memorials would be placed on military lands. When 
        reviewing proposals for military memorials, the NCMAC advises 
        sponsors of the option to locate the memorial on lands under 
        the jurisdiction of the DOD. As a result, such memorials as the 
        National Memorial to Military Working Dogs and the Memorial to 
        Military Spouses have been directed to military properties.
        <bullet>  The CWA addresses where memorials can be built. 
        Although it is called the Commemorative Works Act, Congress 
        provided that its purposes included the protection of the 
        historic L'Enfant and McMillan plans, ensuring continued public 
        use and enjoyment of open space and preserving, protecting and 
        maintaining this limited open space. In 2003, Congress 
        determined that the Mall is a ``completed work of civic art'' 
        and established an area known as ``the Reserve,'' in which no 
        new memorials would be placed in addition to those already 
        authorized for this location. The Reserve is the core of the 
        great cross-axis of the National Mall.
Siting Memorials in the Reserve, Area I and Area II
    Legislation to authorize a memorial grants authority to a named 
sponsor to seek sites within Area II, which is the area of Washington, 
DC and its Environs (which includes part of Virginia), outside of Area 
I and the Reserve. The memorial sponsor may submit a request to the 
Secretary or the Administrator, as appropriate, to be authorized to 
consider sites in Area I. Area I, as defined by the CWA, is primarily 
the portion of the District of Columbia in the immediate vicinity of 
the National Mall. Its boundaries extend from the grounds of the United 
States Capitol west across the Potomac River into Virginia and from the 
Jefferson Memorial north to Lafayette Park. It is an area of deep 
symbolic significance to the nation. The NCMAC will convene to evaluate 
the request in a public forum. After discussion and testimony from the 
public, memorial sponsors, professional witnesses and subject matter 
experts, if the NCMAC concludes that the subject is of ``preeminent and 
lasting historical significance to the history of the United States,'' 
the NCMAC will recommend that the Secretary seek legislation from 
Congress to allow the memorial to be located within Area I. If the 
Secretary concurs, the Secretary will notify Congress of this 
recommendation for Area I placement.
    If Congress acts on that request within 150 days and grants that 
legislative authority, a site can be designated in either Area I or 
Area II, following the CWA site approval process. Since 1986, of the 27 
existing or planned memorials that have been authorized, only 7 have 
been granted Area I placement.
    When Congress established ``the Reserve'' in 2003, there were 31 
memorials already in place or approved for siting on the Mall, 
including the two memorials not yet built: the World War II Memorial 
and the Martin Luther King, Jr. Memorial. Congress exercised its 
legislative prerogative to make exceptions to the prohibition on new 
memorials, museums, or visitor centers in the Reserve for them, as well 
as in 2003 for the National Museum of African American History and 
Culture and in 2009 for a plaque honoring Senator Robert Dole at the 
World War II Memorial. In the same law that established the Reserve, 
Congress authorized the placement of the Vietnam Veterans Memorial 
visitor center in the Reserve.
Locating and Designing Memorials under the Commemorative Works Act
    The direction provided by Congress in the CWA has been highly 
beneficial in guiding decision-making in determining both the location 
and design of memorials. The process is rigorous and sometimes lengthy, 
requiring multiple consultations and approvals on the site selection 
and the design, as well as extensive environmental and historic 
preservation compliance. It requires the active involvement of multiple 
agencies and organizations. Under the CWA, design approval begins only 
after site selection is completed. Construction can only occur after 
that memorial's sponsor has satisfied the requirements of the CWA, up 
to and including providing funds for future catastrophic maintenance 
and obtaining the construction permit issued by the NPS.
    When memorial legislation becomes law, the NPS works with the 
memorial sponsor to investigate sites on lands eligible for placement 
of new memorials. The NPS is involved because all the memorials that 
have been established under the CWA to date were to be sited on 
parkland or on lands that would be transferred to the NPS. The NPS 
works closely with memorial sponsors to navigate a complicated series 
of studies, reviews, design challenges, agency approvals, and 
environmental compliance.
    The search for the site starts with consideration of the memorial's 
subject and whether there are locations relevant to it. Sponsors 
consult with NPS and review the 2001 Memorials and Museums Master Plan, 
a comprehensive study of potential sites produced by the NCPC, the CFA, 
the NCMAC and the NPS. Investigation typically involves the study of 
those sites with the most potential for that memorial, consultation 
with other agencies, the start of the environmental compliance process, 
and consultation with the D.C. State Historic Preservation Office 
(DCSHPO) and others. The site selection process concludes after NCMAC 
has been consulted on potential sites and the CFA and the NCPC have 
approved the preferred site.
    In addition to commenting to Congress on proposed memorials and 
legislation, the NCMAC is a consulting body to the memorial sponsors 
regarding a memorial's location and design. This consultation takes 
place in meetings that are open to the public following public notice. 
Differing from the approval roles the CWA assigns to the Secretary, the 
CFA and the NCPC, the role of NCMAC is advisory.
    The CFA and the NCPC typically undertake the site selection and 
design review process in parallel. The CFA reviews site selection and 
design for each memorial and must approve both in order for the NPS to 
issue a permit for construction. The site selection process can take 
several reviews before a site is approved, and the CFA may apply design 
guidelines developed with the NCPC. After a site is approved by the 
CFA, the NCPC, and the Secretary, the CFA will review the design for 
approval at two stages--concept and final. The CFA site and design 
reviews takes place in public meetings.
    The NCPC must also approve the memorial site and design. The NCPC 
may apply joint guidelines developed with CFA or develop independent, 
mitigation-related guidelines as part of the National Historic 
Preservation Act (NHPA) Section 106 process, or the National 
Environmental Policy Act (NEPA) process. After approval of the site by 
CFA, NCPC, and the Secretary, the NCPC will review the design for 
approval at two stages--preliminary and final. The NCPC requires 
completion of the NPS's environmental and historic preservation 
compliance prior to design approvals being granted. The NCPC site and 
design reviews takes place in public meetings.
    The DCSHPO is consulted during both the site selection and design 
phases to determine whether the establishment of a memorial could have 
an effect on historic properties and vistas. Should there be potential 
for an adverse effect, then, pursuant to NHPA Section 106, the NPS 
notifies the public and consults with interested parties, who may 
include members of the public. This may result in a Memorandum of 
Agreement between the NPS, the DCSHPO, the memorial sponsor, and the 
Advisory Council on Historic Preservation and others, to mitigate 
adverse effects.
The Effect of the Commemorative Works Act on Future Memorial Proposals
    There are 12 bills currently before Congress to establish 8 new 
commemorative works. The NCMAC studied these bills and over 70 other 
memorial bills since 1986 and made recommendations to the committees of 
Congress designated in the CWA. The NCMAC has recommended amendments, 
and at times that proposed commemorations would be more appropriately 
located on lands other than those covered by the CWA, or more 
appropriately commemorated in a manner other than a traditional 
memorial. The NCMAC also provides a forum in which memorial sponsors 
and members of Congress can confer with experts from the NPS, CFA, 
NCPC, AOC, the ABMC, the DOD, the GSA and District of Columbia 
government. The NCMAC's discussions are informed by members of the 
public, educational institutions, civic organizations, veterans groups, 
foreign nations and subject matter experts advocating for or against 
memorial proposals.
    The NPS is honored to play a role in the establishment of 
commemorative works in our nation's capital and we take very seriously 
our role and duties in the process. The process for establishing 
memorials in Washington, as directed by the Congress, has worked very 
well to ensure that new memorials are thoughtfully considered, 
appropriately located, and beautifully designed. We expect that all 
memorials, by virtue of the public process by which they are being 
established, will have all of these important characteristics and will 
be a source of pride for our entire nation.
Present and Future Uses of the Mall
    The demands on the National Mall are constant and wide-ranging. 
Each year there are over 3,000 applications for public gatherings, 
resulting in more than 14,000 event-days of use. The resulting wear and 
tear damages trees and turf, creating a less-than-desirable appearance 
of the historic landscape and providing continual maintenance 
challenges.
    It is the NPS's responsibility to manage the National Mall in a way 
that responds to the ever-increasing visitation with a more sustainable 
and healthier landscape and improved facilities to accommodate the 
needs of our visitors. Toward this end, the NPS developed the National 
Mall Plan (Plan), which was approved by the Secretary on November 9, 
2010. The Plan is a blueprint to rehabilitate the National Mall, 
accommodate high levels of diverse use, protect the historic symbolic 
landscape, improve energy efficiency and park operations, and better 
meet the needs of millions of visitors.
    Implementing the Plan will require a significant reinvestment 
estimated at $600-$650 million including deferred maintenance. We 
expect to make this investment through a combination of donated funds, 
goods, services and public funding. A major fundraising campaign is 
being undertaken by the nonprofit partner, the Trust for the National 
Mall (Trust). To date the Trust has raised funds for the new wayfinding 
system, a mobile phone app, earthquake repairs to the Washington 
Monument, recycling containers, maintenance equipment, LED lighting, 
and educational programming.
    Several other projects have been or will be completed using 
American Recovery and Reinvestment Act (ARRA) funds. These include the 
DC War Memorial ($4 million), the Lincoln Memorial Reflecting Pool ($40 
million), the Thomas Jefferson Memorial Seawall Rehabilitation ($14 
million), and Phase I of the Potomac Park Levee, an Army Corps of 
Engineers flood control project to protect the downtown area of the 
District of Columbia. Ongoing projects include Phase I of the Mall Turf 
reconstruction project, establishing drainage systems, water collection 
cisterns, irrigation, and replacing the turf with high-tech sod and 
compaction-resistant soils with granite curbs. Phase I is expected to 
be completed in December 2012 at the cost of $14 million. Additionally, 
the Constitution Avenue Reconstruction project, from 15th Street to 
23rd Streets, NW, is nearing completion at the cost of $10 million. 
Projects under design include further phases of the Mall Turf 
reconstruction project, the Mall Walkway Study for the sidewalks along 
the National Mall, the earthquake repairs to the Washington Monument, 
the World War II Memorial Slurry Wall Rehabilitation to address leaks 
and prevent damage to the memorial, the Washington Monument Screening 
Facility and the Thomas Jefferson Memorial Perimeter Security.
    Most recently, the Trust sponsored a National Mall Design 
Competition for three sites out for special treatment in the Plan--the 
Sylvan Theatre, Constitution Gardens, and Union Square. The NPS will 
use ideas generated in the competition to create plans to redevelop the 
Sylvan Theatre and Constitution Gardens, with the Trust initiating a 
major fundraising campaign chaired by former First Lady Laura Bush, to 
execute them. The information and ideas for Union Square will be given 
to the Architect of the Capitol, who now manages the site.
Transportation Issues on the National Mall
    The NPS has recently improved the transportation for visitors 
around the National Mall as it is not possible to provide parking for 
all its visitors. In February 2012, the NPS contracted with ANC Tours 
by Martz Gray Line for service in Arlington National Cemetery and for a 
non-interpretive bus from Union Station to the Cemetery, with stops 
along the National Mall. On April 5, 2012, the NPS signed a short-term 
contract with Open Top Sightseeing for interpretive bus tours of 
National Mall sites and to provide transfer points to its citywide 
tours. In addition, the NPS is working with Capital Bikeshare and the 
District of Columbia Department of Transportation to increase access to 
rental bicycles on or near the National Mall, and 5 stations have 
recently been added. The NPS is currently revising its regulations for 
pedicabs to manage this mode of transportation.
    Mr. Chairman, this concludes my statement. I would be pleased to 
respond to any questions you or the other members of the subcommittee 
may have.
                                 ______
                                 
    Mr. Bishop. Thank you. I noticed on the Constitution 
project, you have those cameras that catch you when you run a 
red light. I think you just got a ticket.
    Mr. Luebke, you are recognized for five minutes.

              STATEMENT OF TOM LUEBKE, SECRETARY, 
                  U.S. COMMISSION OF FINE ARTS

    Mr. Luebke. Thank you, Mr. Chairman. Good morning, Chairman 
Bishop and members of the Subcommittee.
    My name is Thomas Luebke and I am honored to serve as 
Secretary to the U.S. Commission of Fine Arts.
    The Commission thanks you for the invitation to testify 
today and appreciates the opportunity to contribute to this 
discussion on the future of the National Mall.
    The Commission of Fine Arts was created by an Act of 
Congress in 1910 as a result of the planning efforts of the 
Senate Park Commission initiated by Senator James McMillan of 
Michigan at the turn of the 20th Century.
    Since then, the Commission of Fine Arts has played an 
integral role in the creation and development of the National 
Mall as we know it today.
    The Commission is the principal Federal agency for 
reviewing proposals for public and some private structures in 
the nation's capital. The Commission provides advice on design 
and aesthetics to Federal agencies, private individuals and 
organizations, and the District of Columbia Government.
    Comprised of seven Presidentially appointed members who are 
selected for their expertise in the arts, the Commission has a 
particular role in guiding the design of national commemorative 
symbols, including monuments on the National Mall in the 
nation's capital, oversees military cemeteries, or coins and 
medals produced by the United States Mint. These need to be 
worthy representations of our nation and our civic ideals.
    The Commission has been actively engaged in realizing the 
full potential of the Mall as the nation's public ceremonial 
space as envisioned in the McMillan plan of 1902.
    The Commission has reviewed all design and construction on 
the Mall since 1910, including playing a key role in the siting 
and design of the Lincoln Memorial almost 100 years ago.
    Most recently, the Commission of Fine Arts has reviewed 
such plans for additions at or near the National Mall landscape 
such as the Veterans Memorial Center, the Martin Luther King, 
Jr. National Memorial, the Disabled American Veterans Memorial, 
and the Smithsonian Institution's National Museum of African 
American History and Culture.
    In addition, the Commission contributes an important voice 
in improving designs for many operational elements added to 
National Mall sites. These would include security plans for the 
Washington, Lincoln, and Jefferson Memorials, and Smithsonian 
Institution Museums, the design of the Potomac Park levy gate 
structure at 17th Street, N.W., and the current reconstruction 
of the Reflecting Pool and Mall yard panels.
    In its active role in reviewing new projects on the 
National Mall, the Commission also works closely with many 
public and private organizations having an interest in the 
Mall, as well as with the National Park Service.
    In addressing the future of this treasured landscape, the 
Commission has cooperated with its Federal partners to 
alleviate pressure of additional construction on the Mall.
    It collaborated with the National Capital Planning 
Commission, NCPC, as well as the National Capital Memorial 
Advisory Commission on the memorials and museums' master plan 
of 2001. Building on that plan is the goal to encourage 
continued development of museums and commemorative works into 
other areas of the city.
    The Commission of Fine Arts and NCPC together created the 
monumental core framework plan in 2009, which recommended the 
extension of the commemorative landscape into key areas of the 
surrounding city.
    The Commission has also been an important consulting agency 
in the development of the National Park Service's National Mall 
plan. We are pleased to continue a very cooperative 
relationship with the Park Service.
    Included in the Commission's responsibilities is the 
approval of sites and designs of memorials under the 
Commemorative Works Act of 1986.
    I am honored to represent the Commission of Fine Arts at 
the National Capital Memorials Advisory Commission, this ex-
officio body, expressly established by Congress under the law, 
to advise on questions of authorization, location, and design 
of national memorials.
    With this group of professionals who are involved so 
closely in planning and design of the public realm, Congress 
has an unique resource in considering and evaluating the often 
competing interests for accommodating commemoration within the 
monumental core of the city.
    The Commission of Fine Arts, since its creation, is the 
primary design review agency in the nation's capital, and has 
been committed to encouraging the highest quality of design for 
the development of the Mall as the nation's premiere civic 
space.
    We look forward to continuing our work with Congress, other 
agencies, and the public to achieve the strongest vision 
possible for the National Mall.
    Mr. Chairman, that concludes my testimony and thank you for 
inviting me to testify. We would be pleased to answer any 
questions you might have.
    [The prepared statement of Mr. Luebke follows:]

 Statement of Thomas E. Luebke, Secretary, U.S. Commission of Fine Arts

    Good morning, Chairman Bishop and Members of the Subcommittee. My 
name is Thomas Luebke and I am honored to serve as Secretary to the 
U.S. Commission of Fine Arts. The Commission thanks you for the 
invitation to testify today and appreciates the opportunity to 
contribute to the discussion on the future of the National Mall.
    The Commission of Fine Arts was created by an act of Congress in 
1910 as a result of the planning efforts of the Senate Park Commission, 
initiated by Senator James McMillan of Michigan at the turn of the 
twentieth century. Since then, the Commission of Fine Arts has played 
an integral role in the creation and development of the National Mall 
as we know it today. The Commission is the principal federal agency for 
reviewing proposals for public and some private structures in the 
Nation's Capital; the Commission provides advice on design and 
aesthetics to Federal agencies, private individuals and organizations, 
and the District of Columbia government. Comprised of seven 
Presidentially appointed members selected for their expertise in the 
arts, the Commission has a particular role in guiding the design of 
national commemorative symbols--including monuments on the National 
Mall in the Nation's capital, overseas military cemeteries, or coins 
and medals produced by the United States Mint--as worthy 
representations of our nation and its civic ideals.
    The Commission has been actively engaged in realizing the full 
potential of the Mall as the Nation's public ceremonial space as 
envisioned in the McMillan Plan of 1902. The Commission has reviewed 
all design and construction on the Mall since 1910--including playing a 
key role in the siting and design of the Lincoln Memorial almost one 
hundred years ago. Most recently, the Commission of Fine Arts has 
reviewed plans for such additions at or near the National Mall 
landscape as the Vietnam Veterans Memorial Center, the Martin Luther 
King Jr. National Memorial, the Disabled Americans Veterans Memorial, 
and the Smithsonian Institution's National Museum of African American 
History and Culture. In addition, the Commission has contributed an 
important voice in improving designs for many operational elements 
added to National Mall sites: security plans for the Washington, 
Lincoln, and Jefferson Memorials and Smithsonian Institution museums; 
the design of the Potomac levee gate structure at 17th Street, N.W.; 
and the current reconstruction of the Reflecting Pool and Mall lawn 
panels.
    In its active role in reviewing new projects on the National Mall, 
the Commission of Fine Arts works closely with many public and private 
organizations having an interest in the Mall, as well as with the 
National Park Service (NPS). In addressing the future of this treasured 
landscape, the Commission has cooperated with its Federal partners to 
alleviate the pressure of additional construction on the Mall; it 
collaborated with the National Capital Planning Commission (NCPC) and 
the National Capital Memorial Advisory Commission (NCMAC) on the 
Memorials and Museums Master Plan of 2001. Building on the plan's goal 
to encourage the continued development of museums and commemorative 
works in other areas of the city, the Commission of Fine Arts and NCPC 
together created the Monumental Core Framework Plan in 2009, 
recommending the extension of the commemorative landscape into key 
areas of the surrounding city. The Commission has also been a key 
consulting agency in the development of the NPS' National Mall Plan, 
continuing a cooperative relationship with the NPS.
    Included in the Commission's responsibilities is the approval of 
sites and designs of memorials under the Commemorative Works Act of 
1986. I represent the Commission of Fine Arts on the NCMAC, the ex-
officio body expressly established by Congress under this law to advise 
on questions of authorization, location, and design of national 
memorials. With this group of professionals who are involved so closely 
in planning and design of the public realm, Congress has a unique 
resource in considering and evaluating the often-competing interests 
for accommodating commemoration within the monumental core of the city.
    The Commission of Fine Arts, since its creation as the primary 
design review agency in the Nation's Capital, has been committed to 
encouraging the highest quality of design for the development of the 
Mall as the Nation's premier civic space. We look forward to continuing 
our work with Congress, other agencies, and the public to achieve the 
strongest vision possible for the National Mall.
    This concludes my testimony and thank you for inviting me to 
testify. I would be pleased to respond to any questions you might have.
                                 ______
                                 
    Mr. Bishop. Thank you very much.
    Mr. Bryant?

            STATEMENT OF PRESTON BRYANT, CHAIRMAN, 
              NATIONAL CAPITAL PLANNING COMMISSION

    Mr. Bryant. Good morning, Mr. Chairman, and members of the 
Subcommittee.
    My name is Preston Bryant. I am the Chairman of the 
National Capital Planning Commission. The National Capital 
Planning Commission is the Federal Government's central 
planning agency for the national capital region. We focus on 
key planning issues that affect Federal lands and buildings.
    Our activities include, for example, jointly authoring a 
comprehensive plan for the national capital with the District 
of Columbia, reviewing all Federal development projects in the 
region, and addressing the unique planning issues of the 
capital city.
    I am pleased to have the opportunity to speak with you 
about NCPC's role in the national memorial process and our 
efforts to protect the historic open space and unique urban 
design qualities that make Washington one of the most admired 
capital cities in the world.
    For each memorial project, NCPC strives to ensure that we 
implement a process that is responsive and transparent. More 
broadly our goal is three fold, first, to ensure that 
Washington's commemorative landscape explores our diverse, rich 
histories and stories of American history.
    Second, to meet the expectations of millions of Americans 
who visit the nation's capital, and third, as you said, Mr. 
Chairman, to plan for the future generations to have excellent 
locations for their memorial projects.
    Under the Commemorative Works Act, NCPC approves the site 
and design of each new commemorative work that Congress 
authorizes.
    NCPC works with a number of stakeholders, memorial 
sponsors, the National Capital Memorial Advisory Commission, 
the U.S. Commission of Fine Arts, and depending on the site or 
location, either the National Park Service or the General 
Services Administration.
    The work of these stakeholders is to ensure the memorials 
are located and designed in a manner that supports their 
commemorative purpose and enhances their surroundings.
    Because memorials are often integrated within some of 
Washington's most prominent public settings, the staff works 
closely with sponsors in either the National Park Service or 
the GSA to ensure that each new project is designed to the 
highest standards.
    In addition to our projects' specific work, NCPC and its 
agency partners develop studies. These studies are designed to 
support the memorial process and plan for the next generation 
of memorials throughout Washington.
    In recent years, one of the central themes of our work has 
been to protect the National Mall from over building. Over 
building may diminish the distinctive openness of this symbolic 
place.
    In response to concerns to protect the Mall's unique urban 
design character and its existing memorial landscape, the 
National Capital Planning Commission and its agency partners 
have developed two significant works.
    One is the memorials and museums master plan, and second, 
the monumental core framework plan. Let me say a word about 
each of these.
    The memorials and museums master plan achieved two 
important goals. First, it identified a reserve area where no 
new memorials may be built. Congress codified the reserve which 
includes the cross axis of the Mall in the 2003 Commemorative 
Works Clarification and Revision Act.
    NCPC strongly supports the reserve policy which maintains 
the Mall's open spaces and existing memorial landscapes that 
are admired and enjoyed by Americans today.
    The master plan significantly also identifies 100 potential 
sites for future memorials and museums throughout Washington, 
D.C. This strategy does a few things. It protects the Mall. It 
helps sponsor visualized opportunities for projects, and it 
introduces cultural destinations and neighborhoods in all four 
quadrants of the city.
    The master plan has successfully got six projects to other 
locations off the Mall, including memorials honoring President 
Eisenhower, the U.S. Air Force, Czechoslovakian President 
Thomas Masaryk, the Victims of Communism, the Victims of 
Manmade Ukrainian Famine, and American Veterans Disabled for 
Life.
    Let me speak to the monumental core framework plan. In 
2009, NCPC and CFA published the monumental core framework 
plan. This plan identifies strategies to extend civic qualities 
of the National Mall and the vitality of the city into 
Federally dominated precincts throughout the monumental core.
    In doing so, the framework plan identifies several 
strategies to make potential locations for new cultural 
destinations located off the Mall more attractive to museum and 
memorial sponsors.
    Examples include precincts south of Independence Avenue, 
including 10th Street, S.W., and Banneker Overlook.
    New cultural projects in these areas can serve as anchors 
that spark investment, add high quality public spaces and 
buildings, and provide destinations that introduce visitors to 
new parts of the city.
    NCPC coordinated closely with the National Park Service to 
ensure that the framework plan's goals and recommendations were 
consistent with the National Park Service's National Mall plan.
    These plans provide the long range vision memorial sponsors 
need to consider areas beyond the National Mall.
    Last, our most recent study called ``Washington as 
Commemoration,'' provides an opportunity to look closely at 
trends related to memorial content or location over time.
    The NCPC study was conducted in partnership with the 
National Park Service and includes the development of publicly 
accessible catalogs of existing memorials on Federal land in 
Washington, classified by subject matter, theme and location, 
and you can see this as an interactive online map at NCPC.gov.
    The study also includes analysis of how other capital 
cities in the United States and abroad plan for memorials.
    This information will better equip agencies and the public 
to consider their critical policy and planning decisions 
associated with memorial development today.
    Thank you for inviting me and I am happy to answer 
questions.
    [The prepared statement of Mr. Bryant follows:]

            Statement of L. Preston Bryant, Jr., Chairman, 
                  National Capital Planning Commission

    Good morning, Chairman Bishop and Members of the Subcommittee. My 
name is Preston Bryant and I am the Chairman of the National Capital 
Planning Commission (NCPC). NCPC is the federal government's central 
planning agency for the National Capital Region, and we focus on key 
planning issues that affect federal lands and buildings. Our activities 
include: jointly authoring a Comprehensive Plan for the National 
Capital with the District of Columbia, reviewing all federal 
development projects in the region, and addressing the unique planning 
issues of the capital city.
    I am pleased to have the opportunity to speak with you about NCPC's 
role in the national memorial process and our efforts to protect the 
historic open space and unique urban design qualities that make 
Washington one of the most admired capital cities in the world. For 
each memorial project, NCPC strives to ensure that we implement a 
process that is responsive and transparent. More broadly, our goal is 
three-fold: to ensure that Washington's commemorative landscape 
explores the diverse, rich stories of American history; to meet the 
expectations of millions of Americans who visit our nation's capital; 
and to plan for future generations to have excellent locations for 
their memorial projects.
    Under the Commemorative Works Act (CWA), NCPC approves the site and 
design for each new commemorative work that Congress authorizes. NCPC 
works with memorial sponsors; the National Capital Memorial Advisory 
Commission (NCMAC); the U.S. Commission of Fine Arts (CFA); and, 
depending on the site location, either the National Park Service (NPS) 
or the General Services Administration (GSA), to ensure that memorials 
are located and designed in a manner that supports their commemorative 
purpose and enhances their surroundings. Because memorials are often 
integrated within some of Washington's most prominent public settings, 
staff works closely with sponsors and either the NPS or the GSA to 
ensure that each new project is designed to the highest standards.
    In addition to our project specific work, NCPC and its agency 
partners develop studies designed to support the memorial process and 
plan for the next generation of memorials throughout Washington. In 
recent years, one of the central themes of our work has been to protect 
the National Mall from overbuilding, which may diminish the distinctive 
openness of this symbolic place. In response to concerns to protect the 
Mall's unique urban design character and its existing memorial 
landscape, NCPC and its agency partners developed the Memorials and 
Museums Master Plan and the Monumental Core Framework Plan.
    The Memorials and Museums Master Plan achieved two important goals. 
First, it identified a Reserve area where no new memorials may be 
built. Congress codified the Reserve, which includes the great cross-
axis of the Mall, in the 2003 Commemorative Works Clarification and 
Revision Act. NCPC strongly supports the Reserve policy, which 
maintains the Mall's open spaces and existing memorial landscapes that 
are admired and enjoyed by Americans today.
    The Master Plan also identifies 100 potential sites for future 
memorials and museums throughout Washington, DC. This strategy protects 
the Mall, helps sponsors visualize opportunities for their projects, 
and introduces cultural destinations to neighborhoods in all four 
quadrants of the city. The Master Plan has successfully guided six 
projects to superb locations off the Mall, including memorials honoring 
President Eisenhower, the U.S. Air Force, Czechoslovakian President 
Thomas Masaryk, the Victims of Communism, the Victims of the Manmade 
Ukrainian Famine, and American Veterans Disabled for Life.
    In 2009, NCPC and CFA published the Monumental Core Framework Plan. 
This plan identifies strategies to extend the civic qualities of the 
National Mall and the vitality of the city into the federally-dominated 
precincts throughout the monumental core. In doing so, the Framework 
Plan identifies several strategies to make potential locations for new 
cultural destinations located off of the National Mall more attractive 
to museum and memorial sponsors. Examples include the precinct south of 
Independence Avenue, including 10th Street, SW and its terminus at 
Banneker Overlook. New cultural projects in these areas can serve as 
anchors that spark investment; add high-quality public spaces and 
buildings; and provide destinations that introduce visitors to new 
parts of the city. NCPC coordinated closely with the National Park 
Service (NPS) to ensure that the Framework Plan's goals and 
recommendations were consistent with the NPS' National Mall Plan. These 
plans provide the long-range vision memorial sponsors need to consider 
areas beyond the National Mall.
    Our most recent study--Washington as Commemoration--provides an 
opportunity to look closely at trends related to memorial content and 
location over time. This NCPC study was conducted in partnership with 
NPS and includes the development of a publicly-accessible catalog of 
existing memorials on federal land in Washington, classified by subject 
matter, theme, and location. It is available as an interactive, online 
map at www.ncpc.gov. The study also includes analyses of how other 
capital cities in the United States and abroad plan for memorials. This 
information will better equip the agencies and the public to consider 
the critical policy and planning decisions associated with memorial 
development today.
    Thank you for inviting me to share NCPC's work on commemoration and 
to brief you on our role in the process. I look forward to answering 
any questions you may have.
                                 ______
                                 
    Mr. Bishop. Thank you.
    Mr. Shubow?

 STATEMENT OF JUSTIN SHUBOW, PRESIDENT AND CHAIRMAN, NATIONAL 
                       CIVIC ART SOCIETY

    Mr. Shubow. Mr. Chairman, Ranking Member Grijalva, members 
of the Subcommittee, I would like to thank you for inviting the 
National Civic Art Society to speak today.
    As an educational non-profit dedicated to the classical and 
humanistic tradition in public art and architecture, we believe 
in the importance of preserving and protecting the National 
Mall and the L'Enfant and McMillan plans that created it as an 
essential part of our country's heritage.
    The Mall and the surrounding monumental core are arguably 
the greatest work of civic art in the modern era. To highlight 
this, we recently produced a documentary film on Washington, 
D.C.'s classical heritage, which is available to watch on our 
website, Civicart.org.
    To envision the future of the Mall, we must understand its 
past. The Mall as we know it is nearly--just over 100 years 
old, yet it appears to have been there forever. It is hard to 
imagine but at the turn of the 20th Century, there was no 
breathtaking vista from the Capitol to the Potomac, no graceful 
boulevard lined with noble edifices, but instead, a shabby 
rambling park anchored on one end by a sooty train station and 
on the other by a swamp.
    This was hardly the vision President George Washington had 
in mind when he directed Pierre L'Enfant to create a master 
plan for a new capital worthy of a new nation, a grand scheme 
of radiating avenues whose geometrical arrangement was 
symbolically focused on the Capitol, White House, and future 
Washington Monument.
    To this day, these are the landmarks by which we orient 
ourselves spatially and spiritually. Harmonious, luminous and 
orderly, the L'Enfant plan and its most important structures 
were to be classical in design, the physical manifestation of 
our form of government and political aspirations.
    This conscious decision connected the city to the ideals of 
Republican Rome, Democratic Athens, and the Enlightenment.
    As Thomas Jefferson emphasized, the classical tradition is 
time-honored and timeless. In a letter to L'Enfant, he 
expressed his personal desire for a capitol designed after 
``one of the models of antiquity which would have the 
approbation of thousands of years.''
    To be clear, our founding architects no more slavishly 
imitated European architecture any more than the founders 
imitated other forms of government when they drafted the 
Constitution. They created an unmistakably American style.
    Alas, by 1900, the L'Enfant plan had largely been 
forgotten. Thankfully, in 1901, Congress created the Senate 
Park Commission led by Senator James McMillan.
    Serving on that Commission were some of the greatest 
architects and artists of their time, all of whom worked within 
the classical tradition.
    They not only revived the L'Enfant plan, they perfected it. 
They extended the main axis of the Mall to the Lincoln Memorial 
site. They also cleared trees and leveled the ground to create 
one of the greatest manmade vistas and public spaces in the 
world.
    The McMillan plan created a symbol and site of national 
unity, one that still stands as the physical embodiment of our 
collective ideals.
    Yet, beginning after the First World War, some avant-garde 
architects abandoned that spirit, beholden to an ideology that 
rejected the past, they asserted that classical buildings, such 
as the Capitol, were musky piles that stunk of ideas and ideals 
whose time had passed.
    Indeed, these architectural radicals opposed the designs 
for the Lincoln and Jefferson Memorials.
    After World War II, the avant-gardist hegemony was 
complete. As a result, the Mall came to be vandalized by such 
buildings as the Hirshhorn Museum, which looks like an alien 
spacecraft or a gun turret looming over the public, as well as 
the brutalist FBI Building which looks like the Ministry of 
Fear.
    Today, we find ourselves in a predicament like that of the 
McMillan Commission. The classical vision for the city and its 
monumental core has once again been forgotten, ignored, and 
violated.
    Sadly, the National Park Service and other agencies charged 
with preserving the Mall have been neglecting their mission.
    If any district deserves the stringent protections of a 
national landmark, it is the Mall as created by the L'Enfant 
and McMillan plans. Yet, when giving official approval to the 
design of the Eisenhower Memorial, a post-modern eye sore that 
clashes with our tradition of Presidential memorials, the Park 
Service did not even bother to consider the design's cultural 
and historical impact on the Mall and other protected sites.
    The good news is there is a solution. The future is rooted 
in the past. What we need is a plan for the District of 
Columbia that carries on the brilliant vision of our founders, 
a McMillan plan for our time that would preserve and extend the 
best of our capital city into a third century.
    It was none other than President Franklin Delano Roosevelt 
who made sure that the Jefferson Memorial was built over the 
objections of out-of-touch elites. He explicitly paralleled the 
importance of continuity in architecture to that in government, 
``The principles of harmony and of necessity require that the 
building of a new structure shall blend with the essential 
lines of the old. It is this combination of the old and the new 
that marks orderly, peaceful progress, not only in buildings, 
but in building government itself.''
    It is that sort of leadership which is willing to stand up 
to architects who think they know better than the American 
people that Washington sorely needs today.
    Thank you.
    [The prepared statement of Mr. Shubow follows:]

          Statement of Justin Shubow, President and Chairman, 
                     The National Civic Art Society

    Mr. Chairman, Ranking Member Grijalva, members of the Subcommittee, 
I would like to thank you for inviting the National Civic Art Society 
to speak today. As an educational nonprofit dedicated to the classical 
and humanistic tradition in public art and architecture, we believe in 
the importance of preserving and protecting the National Mall, and the 
L'Enfant and McMillan Plans that defined it, as an essential part of 
our country's heritage and future. The Mall and the surrounding 
Monumental Core are arguably the greatest work of civic art in the 
modern era. We recently produced a documentary film on Washington, 
D.C.'s classical heritage, which is available to watch on our website, 
Civicart.org.
    To envision the future of the Mall, we must first understand its 
past. The Mall, as we know it, is just slightly over 100 years old. Yet 
it appears to have been there for many centuries. It is hard to 
imagine, but at the turn of the 20th century there was no breathtaking 
vista from the Capitol building to the Potomac, no graceful boulevard 
of trees and paths lined with noble edifices, but instead a shabby 
rambling park, anchored at one end by a sooty train station and on the 
other by a malarial swamp. It was abutted by flophouses and squalor.
    This was hardly the vision for the city that President George 
Washington had in mind when he directed Pierre L'Enfant to create a 
master plan for a new capital worthy of a new republic: a grand scheme 
of radiating streets and avenues whose geometrical arrangement is 
hierarchically focused on the Capitol, White House, and future 
Washington Monument. To this day, these are the landmarks by which we 
orient ourselves spatially and spiritually. Harmonious, luminous, and 
orderly, the urbanism of the L'Enfant plan and the architecture of its 
most important structures were to be classical in design, reflecting in 
physical form our political philosophy. This conscious decision 
connected the city to the ideals of republican Rome and democratic 
Athens, as well as to the Age of Reason later called the Enlightenment.
    The classical tradition, of which Washington, D.C. is part, time-
honored and timeless. In a letter to L'Enfant, Thomas Jefferson 
expressed his personal desire for a capitol designed after ``one of the 
models of antiquity, which have had the approbation of thousands of 
years.'' To be clear, the Founding Architects did not slavishly imitate 
past or then-contemporary European architecture, no more than the 
Founders slavishly imitated any political structure when they wrote the 
Constitution. They created an unmistakably American idiom. Who would 
confuse the White House or Capitol for a building in a foreign country? 
The Founders consciously connected their modern time with the two 
millennia-long tradition of classicism. They recognized its dignity, 
its aspiration to beauty, its harmony with the natural world and human 
perception, and its capability of expressing hierarchy and meaning to 
the citizens it serves. They were Founders and Framers not just in 
government but in architecture. They took the wisdom of the past and 
adapted and improved on it. Why should we be any different today?
    Alas, by 1900 the L'Enfant plan for our national capital was 
largely forgotten. It had been compromised by commercial pressures and 
aesthetic confusion. Thankfully, in 1901 Congress created the famous 
Senate Park Commission led by Senator James McMillan of Michigan. 
Serving on the McMillan Commission were some of the greatest 
architects, landscape designers, and sculptors of their time, all of 
whom worked within the classical tradition as did L'Enfant and his 
contemporaries before them. Influenced by the City Beautiful movement, 
they not just revived the L'Enfant Plan, they perfected it. Among their 
achievements, they extended the main axis of the Mall to the Lincoln 
Memorial site. They also cleared trees and leveled the ground to create 
one of the greatest man-made vistas in the world. It is transfixing. 
Empty space in and of itself is made electric, with the Washington 
Monument as the lightening rod. There is no official rule that the 
American people must congregate there for our most historic events and 
communal gatherings, though they do so nonetheless. They are drawn in 
by Mall's power, which is welcoming and uplifting, not oppressive. It 
is a vista of optimism and promise.
    The McMillan Plan managed to create a symbol and place of national 
unity, one that even today stands as the visible manifestation of our 
collective ideals. The classical L'Enfant and McMillan Plans, together 
with such masterpieces as the Lincoln and Jefferson Memorials, are what 
have endowed us with the eternal capital of an eternal republic.
    Yet beginning after the First World War, some avant-garde 
architects and theorists wished to replace the eternal with the 
putative spirit of the times. Beholden to an ideology that rejected the 
past, an ideology that had become fashionable in a crumbling Europe, 
they asserted that classicism had become passe; it was a death-mask no 
longer capable of expressing the soul of America. To these individuals, 
buildings such as the Capitol were musty piles stinking of ideas and 
ideals whose time had passed. Indeed, these architectural radicals 
opposed the design for the Lincoln and Jefferson Memorials. Frank Lloyd 
Wright called the Lincoln Memorial the ``most asinine miscarriage of 
building materials that ever happened.'' The dean of the Harvard School 
of design proclaimed that the National Gallery of Art was a ``pink 
marble whorehouse.'' After World War II, the avant-guardist hegemony 
was complete.
    It is due to this total rejection of our national heritage that the 
Mall came to be vandalized by the Hirshhorn Museum, an alien spacecraft 
or gun turret looming over the public. This elitist movement gave us 
the urban-planning disaster of L'Enfant Plaza was constructed, as well 
as the Brutalist FBI Building, which looks like the Ministry of Fear. 
Do the citizens of America and government employees who visit and work 
in these buildings enjoy and take pride in them equaling the National 
Archives or the Federal Triangle?
    Today we find ourselves in a predicament like that of the McMillan 
Commission: the guiding classical vision for city and its Monumental 
Core has once again been forgotten, ignored, and violated by accretions 
of discordant art and architecture.
    Sadly, the National Park Service and other agencies charged with 
preserving the Mall have been neglecting their mission. If any district 
deserves the stringent protections of a national landmark, it is the 
Mall as created by the L'Enfant and McMillan Plans. Yet when giving 
official approval to the design of the Eisenhower Memorial--which is 
entirely inharmonious with our greatest presidential memorials--the 
Park Service did not even bother to consider its cultural and 
historical impact on the Mall and other protected sites in the area. 
Stylistic harmony, dignity, and perhaps even beauty, are of no concern 
to them. It is as if the National Park Service did not care whether an 
invasive weed was to be planted in a natural park of evergreens.
    Not only are the National Park Service and others not preserving 
what must be preserved, they are acting to preserve what is unworthy of 
preservation. Although difficult for average man to imagine, in the 
process of approving the Eisenhower Memorial, the National Park 
Service, General Services Administration, and others lavished praise on 
the adjacent Department of Education Building and are now seeking to 
place it on the National Register of Historic Places. Can one imagine a 
more sterile, soulless building? It conjures not education but faceless 
bureaucracy, with all the character and warmth of a computer punch 
card. Who would miss it if it were demolished? The aesthetic and 
cultural confusion demonstrated by these sorts of agency decisions is 
astounding.
    The good news is there is a solution; the future is written in the 
past. What the country needs is a plan for Washington, D.C. that 
carries on the vision set by our Founders and their architects: a 
McMillan Plan for our time that would in equal measure preserve and 
extend the best of our capital city into a third century. Doing so will 
ensure that the nation's capital remains the physical embodiment of our 
political identity and our national aspirations.
    It was none other the President Franklin Delano Roosevelt who made 
sure the magnificent Jefferson Memorial was built over the objections 
of out-of-touch elites. He explicitly paralleled the importance of 
continuity of tradition in architecture to that in government:
        [T]he principles of harmony and of necessity require that the 
        building of a new structure shall blend with the essential 
        lines of the old. It is this combination of the old and the new 
        that marks orderly peaceful progress, not only in buildings but 
        in building government itself. . ..
    It is that sort of leadership, which is willing to stand up to 
architects who think they know better than the American people, that 
Washington sorely needs today. We believe your vision can equal that of 
our Founders, and that this bodes well for the future of our nation's 
capital.
    Thank you.
                                 ______
                                 
    Mr. Bishop. Thank you.
    Dr. View?

   STATEMENT OF DR. JENICE VIEW, WASHINGTON, D.C., ASSISTANT 
               PROFESSOR, GEORGE MASON UNIVERSITY

    Dr. View. Mr. Chairman and members of the Committee, thank 
you for the opportunity to address the future of the National 
Mall, a place that is dear to me as a native Washingtonian and 
in my role as a history educator for practicing classroom 
teachers.
    All of us here believe in the importance of teaching 
history, and for the sake of today's discussion, let me suggest 
that good history instruction connects the learner to the story 
being told and to the significance of continuing to tell the 
story for many years.
    One instructional method builds historical thinking that 
encourages teachers to share with students their passion for 
the subject matter through immersion and exploration 
perspectives taking, and informed debate.
    Today's teachers face considerable challenges in helping 
students engage in historical thinking. Most teachers, 
including history majors, generally receive poor instruction 
from their K-12 teachers as well as from their university 
instructors.
    Many teachers feel restricted by standardized tests and in 
the absence of strong professional development, classroom 
teachers tend to use methods that are familiar and approved 
rather than those that are more engaging.
    With the Federal funding of the Teaching American History 
Grants phasing out, there are even fewer opportunities for 
teachers to deepen their professional practice.
    Yet, the creative history teacher can still help students 
understand and appreciate history.
    One way is through field visits to historic sites. The 
National Mall, with its wealth of memorials, monuments, museums 
and historic sites is considered the gold standard for history 
story telling, welcoming over 24 million visitors each year.
    It is not enough to drive eighth graders 1,000 miles to 
stand at the base of a monument and say kids, this is important 
because it is here.
    The thing that makes historic sites and memorials 
educational is the question why is this still here?
    Public memorials and monuments can spark edifying public 
debate. Memorials might offer the most interesting venues for 
engaging classroom students in historical thinking through the 
use of wise interpretation that embraces effective 
technologies, partnerships, and a posture of humility.
    If we truly want to honor the people and events from our 
history, we must do more than create solitary pieces of stone 
that largely serve as resting places for migratory birds.
    A person or event worthy of representation is also worthy 
of interpretation that brings the stones alive and places it in 
a context for understanding by future generations.
    The habits of democracy must be engineered into our 
memorials and monuments using whatever technologies are most 
effective.
    A simple technology involves chalk and paper for rubbing 
headstones. Another example is teaching with historic places 
websites, which allows virtual visits to the National Mall 
before, after or instead of a trip to Washington.
    Whatever the technology, it should support the tasks of 
taking multiple perspectives, asking hard questions, and 
engaging in meaningful debates.
    Effective partnerships between the classroom teacher and 
the on-site interpreter can be arranged beforehand. However, 
skilled educational professionals are always ready for a 
spontaneous moment of insight and know how to support one 
another with age appropriate extensions for student learning.
    The permanence of monuments can create embarrassing errors. 
One recent and costly example was the poor editing of a quote 
on the Dr. Martin Luther King Memorial regarding his posture as 
a drum major for justice.
    This kind of error argues the general need for humility in 
commemorating and interpreting the past.
    A recent interview with a Vietnam war veteran focused on 
the memorial known as ``The Wall.'' Mr. Hatton is certain that 
without historical context, his eight grandchildren would not 
have even a fraction of his emotional response if they were to 
simply visit The Wall.
    He would want them to get more than a pamphlet. Instead, he 
would want them to engage with audio and visual material that 
offer the context for the war, to talk honestly with a 
knowledgeable interpreter and so on.
    In addition, thinking about The Wall provoked questions for 
him, such as, is the existence of The Wall a reflection of the 
social unrest at the time? Why was it erected before the World 
War II Memorial?
    These are the kinds of questions that are part of 
historical thinking and which can be answered through humble 
interpretation, effective instructional technologies, and 
partnerships between schools and sites, for the Vietnam 
veteran, his eight grandchildren, and any visitors 100 years 
from now seeking to understand the V shaped black granite wall 
on the National Mall.
    All of the stories, the ugly, the beautiful, the bitter and 
the bold, all of the stories of the United States deserve 
telling, and the National Mall is one of the most important 
sites for this sharing.
    To be instructive, there must be something to the stories 
following once upon a time there was a person, place or thing.
    I attempt to argue here that a humble interpretation that 
uses effective technologies and classroom/site partnerships 
helps to complete the story.
    Thank you.
    [The prepared statement of Dr. View follows:]

         Statement of Dr. Jenice L. View, Assistant Professor, 
                        George Mason University

    Thank you for the opportunity to address the future of the National 
Mall, a place that is near and dear to me as a native Washingtonian and 
in my role as a history educator for practicing classroom teachers.
    I will elaborate on four points in this testimony: the importance 
of teaching history; the challenges facing contemporary history and 
social studies classroom teachers; the value of historic sites and 
memorials; and the urgent need for informed interpretation of historic 
sites and memorials.
The Importance Of Teaching History
    We are all here today because we believe in the importance of 
teaching history, as a way of reflecting on our collective past, as a 
way of understanding where we are today and how we got here, and as a 
springboard for entering our collective future. While few would argue 
the value of teaching history, there is considerable debate about what 
it means to teach history well. For the sake of today's discussion, let 
us posit that good history instruction helps the learner to feel 
connected to the story being told and to understand the significance of 
continuing to tell the story many years after the fact.
    One method of offering this kind of instruction is by engaging in 
historical thinking. The current scholarship on historical thinking 
identifies five core components to evaluating historical meaning, 
including multiple accounts and perspectives, analysis of primary 
documents, sourcing, understanding historical context, and establishing 
claim-evidence connections (Historical Thinking Matters, 2011; Martin, 
2011; National Center for History in the Schools, 2011). In addition, 
critical scholars suggest that it is important for students to 
understand that history is not set in concrete but rather is an 
evolving understanding of the past that includes their own histories 
and that necessarily engages them in the practice of changing the world 
(Aguilar, 2010; Freire, 1970/2000). What this means for history and 
social studies teachers is to share with students their passion and 
knowledge of the subject matter through lengthy immersion and 
exploration, perspective taking, informed debate, and hard questioning.
Contemporary History and Social Studies Classroom Teachers
    Contemporary history and social studies classroom teachers face 
considerable challenges in providing opportunities for students to 
engage in any kind of meaningful historical thinking.
    Among history teachers in the U.S., few have learned much history 
content and fewer than half majored or minored in history in college 
(Ravitch, 2000; Finn, in Ravitch, 2004). U.S. teachers express poor 
perceptions and behaviors in teaching American history, particularly 
when it comes to teaching students to read and understand subtext, and 
to understand cultural assumptions and moral ambiguity (Liu, Warren & 
Cowart, 2006). A 2000 study by Levstik indicates that teachers and 
teacher candidates, particularly those who are ``white,'' are often 
more reluctant to teach ``negative'' histories than are their students 
to learn about the complexities of the past, particularly students of 
color who identify personally with an unsanitized, multicultural view 
of history (Epstein, 2009; Levstik, 2000). Teachers expressed a 
preference for upholding the silences and the politeness of imperfect 
curricula and non-combative classrooms (Levstik, 2000, p. 297). 
Teachers belonging to social or racial groups that differ from their 
students face the challenge of being sufficiently self-reflective about 
their own positionality to effectively reach/teach students in the 
teaching of multicultural histories (Gruber, 2006). Yet, Cess-Newsome 
(2002) and Palardy & Rumberger (2008) are among the researchers that 
demonstrate that regardless of race or class, a teacher's background 
impacts instruction. In pre-service, certification, and in-service 
professional development programs, it is possible for teachers to learn 
methods of subject matter instruction that augment their own histories 
and background.
    However, most pre-service teachers take history methods courses 
that either fail to address the instructional purposes of history 
education (Barton & Levstik, 2004), or fail to merge effectively the 
history discipline with the teaching methods offered in schools of 
education (McDiarmid & Vinten-Johansen, 2000; Hall & Scott, 2007), or 
both (Van Sledright, 2011). In addition, pre-service teachers' 
understanding of history, and their use of the lessons from history, is 
limited by the range of materials, perspectives, and critical thinking 
tools at their disposal (Van Sledright, 1995; Edmonds, Hull, Janik & 
Rylance, 2005; Maestri, 2006). Most college students, including history 
majors, are exposed to teaching methods that fail to utilize what is 
known about how best to teach history; generally they have received 
poor instruction from their K-12 teachers, as well as from their 
university instructors (Ragland, 2007; Waters, 2005).
    For most in-service classroom teachers the goal of promoting 
historical understanding and thinking historically is severely 
constrained by professional training, time and insight (Morton, 2000). 
Once in the classroom, history instruction suffers from poor teacher 
preparation (Stearns, Seixas & Wineburg, 2000) biased or poorly written 
textbooks (Ravitch, 2004; Ravitch, 2003; Apple, 2000), and a pedagogy 
that is driven as much by the demands of principals for an orderly 
school setting as by the desires of academic historians (Brophy & Van 
Sledright, 1997). In addition, classroom teachers often feel restricted 
by standardized tests believing that they are forbidden to teach 
multiple perspectives or that their students' achievement will suffer 
from a broader or more complex historical understanding.
    The ``stories'' contained within the teaching and learning of 
history are often highly contested (for example, Biggers, 2012; Cooper, 
2010; FoxNews.com), poorly learned (for example, Gaudelli, 2002), and 
poorly taught (for example, De La Paz, Malkus, Monte-Sano, & Montanaro, 
2011; Van Sledright, 2011; Van Hover, 2008;). In the presence of high-
stakes standardized tests for the dominant subjects of language arts 
and mathematics, and in the absence of strong professional development 
and community support for the development of historical thinking 
(Barton, 2008; Levstik & Barton, 2008), P-12 classroom history and 
social studies teachers--particularly in public schools--typically use 
materials and methods that are familiar and approved.
    Strong professional development would help classroom teachers 
overcome these challenges. However, finding appropriate professional 
development experiences is particularly problematic for teachers of 
history and social studies. From 1986 to 2001, an annual national 
assessment of student achievement in history consistently revealed that 
U.S. students lacked the ability to recall basic historical facts or to 
demonstrate higher order historical thinking. In response, the U.S. 
Department of Education created the Teaching American History (TAH) 
program to improve teacher content knowledge of and instructional 
strategies for U.S. history. A 2005 evaluation of the program revealed 
that most of the U.S. Department of Education Teaching American History 
projects were located in school districts serving large numbers of 
students of color, those with limited English proficiency, and students 
from low-income families. While many of the participating TAH teachers 
had post-secondary degrees in history, as opposed to the majority of 
history teachers who are most in need of professional development, even 
they demonstrated weak skills in historical analysis and 
interpretation. (Humphrey, Chang-Ross, Donnelly, Hersh, & Skolnik, 
2005). With the recent failure to fund TAH grants in the 2012 federal 
budget, there will be even fewer opportunities for history and social 
studies teachers to deepen their practice.
    These are the realities under which teachers work. Prescriptive 
teaching practices are enforced in diverse ways in different 
localities, but dampen teachers' individual approaches to the classroom 
and innovative teaching content and methods. Nevertheless, teachers 
within the existing context can offer their students age-appropriate 
ways to interrogate collective memory, and investigate the various 
truths contained within multiple historical narratives. One method for 
doing so is through field studies using historic sites, memorials, and 
monuments as primary sources. The National Mall--with its wealth of 
memorials, monuments, museums, and historic sites--is considered the 
gold standard against which all other public lands are measured, 
welcoming over 24 million visitors from around the world each year 
(National Park Service, http://www.nps.gov/mall/faqs.htm). But, to what 
extent does the Mall offer explicit instructional value to classroom 
students and teachers? Is it sufficient to bus 8th grade students 800 
miles to stand at the base of a monument and say, ``Kids, this is 
important because it is here?''
The Educational Value of Historic Sites and Memorials
    All public sites of history are interpreted in some way by the 
entities that elect to preserve them (Young 1993). Memorials are 
different from the childhood home of an historic figure or a 
battlefield, because they tend to be symbolic and stylized 
representations of a person or event rather than the authentic physical 
places of history (National atlas.gov, 2012). Unlike a museum that may 
include a variety of objects and potentially contradictory information 
about the history being referenced, a memorial tends to take a 
singular--usually positive--perspective (Lowenthal 1985). Regardless of 
the type of historic site, the very existence and preservation of the 
site suggests a collective (if not universal) statement of its 
historical significance, and its lasting value in the telling of the 
story of a community or a nation. By their very existence, these sites 
invite the question, ``Why is this [still] here?'' It is this 
question--``why? ``- that makes historic sites and memorials 
intrinsically educational.
    Field studies at historic sites provide the classroom teacher and 
K-12 students another way of interrogating the past using historical 
thinking skills. Such field studies address the emotions that are 
likely to emerge from the very act of placing oneself into the physical 
space where historical actors lived, worked, worshiped, died, and/or 
are celebrated (Vascellaro, 2011). Field studies incorporate the 
powerful ways that a visit to historic places ``give concrete meaning 
to our history and our lives as no spoken or written word alone can do 
(Horton, 2000)'' and help visitors ``feel connected to the past. . 
.because authentic artifacts seem to transport them straight back to 
the times when history was being made. (Rosenzweig & Thelen, 1998, p. 
12).
    A teacher who takes seriously the task of linking the teaching of 
U.S. national history to student democratic practices within and 
outside of the classroom (Deardorff, Mvusi, McLemore, & Kolnick, 2005, 
p. 23) will embrace any and every opportunity to visit historic sites, 
memorials, and museums in their local community, region, and the 
National Mall.
The Need for Informed Interpretation of Historic Sites and Memorials.
    This section focuses on memorials and monuments. I want to argue 
that the mere existence of a memorial is not the triumphant end of a 
given historical story, but rather the beginning. In a sense, public 
memorials and monuments have the ability to offer public debate that is 
well reasoned, articulate, and edifying. Through interpretation, 
effective technologies, partnerships, and humility, memorials might 
offer a more challenging, and also more interesting, venue for engaging 
classroom students in historical thinking than, perhaps, a museum 
(apologies to the Smithsonian Institution museums, all personal 
favorites).
    Interpretation. If a person or event is worthy of representation, 
it is worthy of good and active interpretation as well. People and 
events of historical significance must be placed in a context for 
understanding, and perhaps appreciation, for future generations. If we 
truly want to honor the people and events that shaped our present and 
which may serve as guides to our collective future, we must offer 
representations that are more than resting places for migratory birds.
    Effective Technologies. If democracy has value, and we want to 
instill in children and youth the habits of democracy, we cannot leave 
this to chance; the habits must be part of the design and engineering 
of our memorials and monuments using whatever communications and 
instructional technologies are available and, most importantly, are 
effective. One example is the National Park Service website, Teaching 
with Historic Places (http://www.nps.gov/nr/twhp/), which allows people 
to access the National Mall using virtual technology before, after, or 
instead of a visit to Washington DC.
    Partnerships. As a teacher prepares students for a field study, the 
teacher has three important roles: to identify students' prior 
knowledge and important vocabulary that will help students understand 
what they might see and experience; to act as an observer on-site; and 
to help students engage in post-visit interpretation and meaning-
making. Similarly, the on-site interpreter must be knowledgeable about 
the historical significance of the site, the controversies concerning 
the history that is being represented, the value of age-appropriate 
responses to student queries, and follow-up resources for classroom 
use. Effective partnerships can be formal and arranged prior to a field 
study. However, education professionals know to be ready for 
spontaneous moments of insight and how to support one another with age-
appropriate extensions for student learning.
    Humility. The permanence of monuments can create embarrassing 
anachronisms and errors; one recent (and costly) example is the public 
outrage following the poor and misleading editing of a quote from Dr. 
Martin Luther King on the King Memorial that implies that he boastfully 
perceived himself to be a drum major for justice, rather than a humble 
servant of the people's desires for justice. Therefore, some questions 
to discuss with a class could be: Who can make mistakes? How do we 
correct the mistakes that we make as individuals, as leaders, as 
governments? How do we avoid hurting people before we make big 
mistakes?
    Two examples of how interpretation, effective technologies, 
partnerships, and humility can work together to create historical 
thinking opportunities for classroom teachers and students are the 
National World War II Memorial and the Vietnam Memorial.
    The National World War II Memorial is potentially an all-
encompassing memorial to all of the U.S heroes of the War. In his 
opening statement, to the 105th Congress concerning the Commemorative 
Works Act, Sen. Craig Thomas, R-WY stated: ``To my knowledge, no one 
objects to a World War II Memorial. That is not the issue. The issue is 
the process and the location. These are legitimate public questions 
because they affect not only history and the military, but specifically 
they are also place on public lands and should have the input of any 
interested public party.'' (Commemorative Works Act, 105th Congress).
    Fierce debate ensued up to and beyond its opening in 2004 
concerning its process and location, its design and its omissions 
(Shea, 2001; Benton-Short, 2006). In an American University graduate 
anthropology classes on memory and remembrance, two students created a 
video of the interpretations and emotions of adult visitors to the 
World War II memorial to explore the ``missing memories'' (Schafft, 
2010). Using this background information, a colleague and I explored 
the memorial with an eye toward how an elementary classroom teacher 
might bring students to the memorial and engage in historical thinking.
    We used the basic technology of observation, pen and paper note 
taking, and close review of the bas reliefs and symbols to ask each 
other questions about the size, construction, and ``message'' of the 
Memorial. We joined a National Park Service ranger-led tour. Once his 
formal talk ended, the ranger conceded that, ``No one had ever brought 
up the lack of diversity at the memorial before'' our probing. No, the 
implied battles did not include the annihilation of Nagasaki and 
Hiroshima; yes, the soldiers all tend to look Caucasian; no, the 
Russians are not listed among our allies. When asked how he would share 
the memorial with elementary school students, he mentioned two stories 
that ``always capture the attention of students'' regarding Maidenform 
bras, hot airplane seats and underwear. In the process of asking hard 
questions, we were sensitive to the fact that we were not conforming, 
that we were creating discomfort, and that ``no one '' questions war 
memorials because it is, at best rude, and at worst unpatriotic. If a 
classroom teacher of questioning elementary students were to face the 
same discomfort, would there be room for the teacher and the 
interpreter to create a partnership to transform the experience into an 
exercise in age-appropriate critical historical thinking?
    Among the things to see, think and wonder about the memorial, 
students may observe the absence of the former Union of Soviet 
Socialist Republics among the Allies; the absence of Tuskegee Airmen 
and the presence of the majority of enlisted African Americans and 
women doing menial work below their capabilities; and the absence of 
American Indian, Asian (especially Japanese) American and Latino 
enlisted persons. A follow-up activity could be to create plaques of 
forgotten people and places, including the Los Alamos site of nuclear 
weapons test site.
    A critical question to explore with students might be why war 
memorials exist (Trofanenko, 2010). Is the purpose of commemorating 
wars to create a general cemetery when there are no specific remains; 
or to observe the national decision about how and why a war was 
declared? To explore these questions with young children is entirely 
age-appropriate, as they regularly perceive history as predominately 
violent, and identify historical people as those ``dying in a famous 
way'' (Levstik, 2008b, p. 54).
    In a recent Memorial Day interview with Howard Hatton, a Vietnam 
War veteran, we discussed the memorial known as The Wall. Following his 
16-month tour of duty in Danang, Mr. Hatton returned home to California 
alive and uninjured, to a loving family, and a successful career. Three 
years later, he visited The Wall, identifying several of his friends 
and comrades among the casualties. It was an emotional experience and 
he has not visited it in subsequent trips to Washington. Mr. Hatton has 
8 grandchildren, ages 2--21 and predicts that they would not have even 
a fraction of his emotional response by visiting the Wall, absent any 
historical context. As their tour guide, he would share his 
observations that low-income Blacks and Latinos were more often placed 
on the front lines in Vietnam and died and were injured in 
disproportionate numbers; and the experiences of African Americans in 
prior wars (for example, his uncle did not want to return to the States 
following his experience in the Korean War due to his experience of 
racism in the U.S.).
    On such a field visit, he would want his grandchildren to get more 
than printed literature: instead, he would want them to engage with 
audio and video material that offer the context for the war; to have an 
opportunity to talk honestly with a knowledgeable interpreter who knows 
something about the history of the Vietnam War, and about the nature of 
war in general; to grasp the magnitude of the casualties by taking in 
all the names; and so on.
    In addition, the Wall provokes lingering questions for Mr. Hatton. 
He wonders if the existence of the Wall is a reflection of the social 
unrest of the time? Why was it erected before the World War II 
memorial? Was it because we ``won'' World War II?
    These are the kinds of questions that are part of historical 
thinking and which can be answered through humble interpretation, 
effective instructional technologies, and partnerships between schools 
and sites, for a Vietnam veteran, his 8 grandchildren, and any school 
visitors 100 years from now who seek understanding of the v-shaped 
black granite wall on the National Mall.
    All of the stories--the ugly, the beautiful, the bitter and the 
bold--all of the stories of the formation, democratization, evolution 
and hopes for the United States deserve to be told. The National Mall 
is one of the most important sites for the telling of these stories. To 
be satisfying and instructive, the stories must come to resolution 
following the initial, ``Once upon a time, there was a (person, place 
or thing) that occupied this spot.'' I attempt to argue here that a 
humble offering of interpretation, effective technologies, and 
partnerships completes the story.
References
Aguilar, E. (2010, Apr 8). How to Engage Young Students in Historical 
        Thinking 4/8/10 http://www.edutopia.org/historical-thinking-
        skills-K-6
Barton, K.C. (2008). Making connections, in Researching History 
        Education: Theory, Method, and Context, (L.S. Levstik & K.S. 
        Barton, eds), pp. 148--158, New York, London: Routledge.
Barton, K. and Levstik, L. (2004). Teaching history for the common 
        good. Mahwah, NJ: Lawrence Erlbaum
Benton-Short, L. (2006). Politics, Public Space and Memorials: The 
        Brawl on the Mall, Urban Geography, 27(4), pp. 297-329:
Biggers, J. ``Who's Afraid of `The Tempest'?'' Arizona's Ban on Ethnic 
        Studies Proscribes Mexican-American History, Local Authors, 
        Even Shakespeare. Salon.com. Retrieved Friday, January 13, 
        2012.
Brophy, J. Alleman, J. & Knighton, B. (2009). Inside the social studies 
        classroom, New York: Routledge.
Brophy, J. and Van Sledright, B. (1997). Teaching and learning history 
        in elementary school. New York: Teachers College Press.
Cess-Newsome, J. (2002). Secondary teachers' knowledge and beliefs 
        about subject matter and their impact on instruction, in 
        Examining pedagogical content knowledge, edited by Gess-
        Newsome, J. and Lederman, N.G., Amsterdam, Netherlands: 
        Springer, pp. 51--94.
Commemorative Works Act, September 11, 1997, 105th Congress
Cooper, J.J. Arizona Ethnic Studies Law Signed by Governor Brewer, 
        Condemned by U.N. Human Rights Experts. Huffington Post, 
        retrieved May 26, 2010. http://www.huffingtonpost.com/2010/05/
        12/Arizona-ethnic-studies-la_n_572864.html
De La Paz, S., Malkus, N., Monte-Sano, C., Montanaro, E. (2011). 
        ``Evaluating American History Teachers' Professional 
        Development: Effects on Student Learning.'' Theory and Research 
        in Social Education. 39(4), pp. 494-540.
Deardorff, M.D., Mvusi, T.R.M., McLemore, L.B., & Kolnick, J. (2005). 
        The Fannie Lou Hamer National Institute on citizenship and 
        democracy: Engaging a curriculum and pedagogy, in The history 
        teacher, 38(4), pp. 441-453.
Edmonds, M., Hull, J. Janik, E. & Rylance, K. (2005) History and 
        critical thinking: A handbook for using historical documents to 
        improve students' thinking skills in the secondary grades. 
        Madison: Wisconsin Historical Society.
Epstein, T. (2009). Interpreting national history: Race, identity, and 
        pedagogy in classrooms and communities. New York: Routledge.
Fitchett, P.G. & Heafner, T L. (2010, Winter). A national perspective 
        of the effects of high-stakes testing and standardization on 
        elementary social studies marginalization. In Theory and 
        Researcy in Social Education. 38(1), 114-130.
FoxNews.com. ``America's Future Texas Board of Education Adopts New 
        Social Studies, History Guidelines Published May 21, 2010
Freire, P. (1970/2000). Pedagogy of the oppressed. New York & London: 
        Continuum.
Gaudelli, W. (2002). ``U.S. Kids Don't Know U.S. history: The NAEP 
        Study, Perspectives, and Presuppositions.'' The Social Studies, 
        93(5), 197--201.
Gillis, J. R., ed. (1994). Commemorations: The Politics of National 
        Identity. Princeton, NJ: Princeton University Press
Gruber, S. (2006). Teaching within history's reach: Teacher 
        positionality, student identify, and revised classroom 
        practices, in Social change in diverse teaching contexts: 
        touchy subjects and routine practices, edited by Barron, N., 
        Grimm, N. and Gruber, S. New York: Peter Lang, pp. 103-124.
Hall, T. & Scott, R. (2007). Closing the gap between professors and 
        teachers: ``Uncoverage'' as a model of professional development 
        for history teachers, in History teacher, 40, pp, 257-263.
Hatton, H. (May 27, 2012). Personal Interview with former lance 
        corporal in Danang, Vietnam during 1968-69, El Cerrito, CA.
Historical Thinking Matters (2011). http://
        historicalthinkingmatters.org, accessed July 28, 2011
Horton, J.O. (2000). On-Site Learning: the power of historic places, in 
        CRM 23(8), pp. 4-5
Humphrey, D., Chang-Ross, C., Donnelly, M.B., Hersh, L., & Skolnik, H. 
        (2005). Evaluation of the Teaching American History Program. 
        Under contract to the U.S. Department of Education Office of 
        Planning, Evaluation and Policy Development. Washington, DC.
Kapavik, R.D.R. (2006). Interrupting traditional social studies 
        classrooms: Perspectives of U.S. history teachers, unpublished 
        dissertation, University of Texas at Austin.
King, J.T. (2009, Spring). Teaching and learning about controversial 
        issues: Lessons from Northern Ireland, in Theory and Research 
        in Social Education, 37(2), pp. 215-246.
Levstik, L. S. (2000). Articulating the silences: Teachers' and 
        adolescents' conceptions of historical significance, in 
        Stearns, P., Seixas, P, Wineburg, S (Eds.) Knowing, Teaching 
        and Learning History: National and International Perspectives. 
        New York: NYU Press, pp. 284-305. ng, Phi Delta Kappan, 76, p. 
        591-96.
Levstik, L.S. (2008a). Historical response and narrative, in Levstik, 
        L.S. & Barton, K.C. (2008). Researching history education: 
        Theory, method and context. New York: Routledge, pp. 10-29.
Levstik, L.S., (2008b). ``Building a sense of history in a first-grade 
        classroom,'' in Levstik, L.S. & Barton, K.C. (2008). 
        Researching history education: Theory, method and context. New 
        York: Routledge, pp. 30--60.
Levstik, L.S. & Barton, K.C. (2008). ``They still use some of their 
        past'': Historical salience in elementary children's 
        chronological thinking, in Levstik, L.S. & Barton, K.C. (2008). 
        Researching history education: Theory, method and context. New 
        York: Routledge, pp. 108--147
Lowenthal, D. (1985). The Past is a Foreign Country. Cambridge and New 
        York: Cambridge University Press.
Lui, Y., Shen, J., Warren, W.J., & Cowart, L. (2006). Assessing the 
        factorial structure of high school history teachers' 
        perceptions on teaching American history, in Teacher 
        development, 10(3), pp. 379-391.
Maestri, M. (2006). The myth of a multicultural curriculum: An analysis 
        of New York State U.S. history regents. History teacher, 39, 
        pp. 381-402.
Martin, D. (2011, Jan. 10). What is Historical Thinking?, 
        Teachinghistory.org, National History Education Clearinghouse, 
        http://teachinghistory.org/nhec-blog/24434
McDiarmid, G.W., & Vinten-Johansen, P. (2000). A catwalk across the 
        great divide: Redesigning the history teaching methods course, 
        in Knowing, teaching and learning history: National and 
        international Perspectives, edited by Stearns, P., Seixas, P., 
        & Wineburg, S. New York: New York University Press.
Mohr, J. (2011). Personal interview with National Park Service Ranger, 
        March 28, 2011, National World War II Memorial, Washington, DC.
Morton, D. (2000). Teaching and learning history in Canada, in Knowing, 
        teaching and learning history: National and international 
        Perspectives, edited by Stearns, P., Seixas, P., & Wineburg, S. 
        New York: New York University Press.
National Atlas.gov A national memorial, monument, park. . .what's the 
        difference? Retrieved on March 22, 2012 from http://
        www.nationalatlas.gov/articles/government/a_nationalparks.html
National Center for History in the Schools--UCLA, (2011). Historical 
        Thinking Standards: http://nchs.ucla.edu/Standards/historical-
        thinking-standards-1/overview accessed July 28, 2011
Noggin Strain (2011, May 20). Field Studies, not Field Trips, Noggin 
        Strain: Observations about education and politics. Friday, May 
        20, 2011 http://nogginstrain.blogspot.com/2011/05/field-
        studies-not-field-trips.html, accessed July 28, 2011
Palardy, G.J. & Rumberger. R.W. (2008). Teacher effectiveness in first 
        grade: The importance of background qualifications, attitudes, 
        and instructional practices for student learning, in 
        Educational evaluation and policy analysis, 30(2), pp. 111-140.
Ragland, R. (2007) Changing secondary teachers' views of teaching 
        American history History teacher, 40, pp. 219-246.
Ravitch, D. (2000). The educational background of history teachers, in 
        Knowing, teaching and learning history: National and 
        international Perspectives, edited by Stearns, P., Seixas, P., 
        & Wineburg, S. New York: New York University Press.
________. (2003). The Language Police: How Pressure Groups Restrict 
        What Students Learn. New York: Knopf.
_________. (2004). A consumer's guide to high school history textbooks. 
        Washington, DC: Thomas B. Fordham Institute.
Rosenzweig, R. & Thelen, D. (1998). The presence of the past: Popular 
        uses of history in American life. New York: Columbia University 
        Press.
Schweber, S. (2006, January-February) ```Holocaust Fatigue': Teaching 
        It Today.'' Social Education, 45--55.
Schafft, G. (2001) Displaying discrediting history in public sites, CRM 
        5
________. (2004). From Racism to Genocide: Anthropology in the Third 
        Reich. Champaign: University of Illinois Press, 2004.
________. (2010). Reading the Subaltern in American Monuments. http://
        subalternmonuments.blogspot.com/
Seixas, P. (1997, Jan). Mapping the terrain of historical significance 
        Social Education. Vol. 61, Iss. 1; pg. 22-28.
Shea, C. (2001). The Brawl on the Mall, in Preservation, National 
        Coalition to Save our Mall: http://www.savethemall.org/media/
        brawl.html
Stearns, P. N., Seixas, P. C. & Wineburg, S.S. (2000). Knowing, 
        teaching, and learning history: National and international 
        perspectives, New York: New York University Press.
Teaching with Historic Places--A program of the National Park Service. 
        http://www.nps.gov/nr/twhp/
Trofanenko, B.M. (2010, Spring). The educational promise of public 
        history museum exhibits, in Theory and Research in Social 
        Education, 38(2), 270--288.
Van Hover, Stephanie. 2008. The professional development of social 
        studies teachers, in L. Levstik & C.A. Tyson (eds.) Handbook of 
        research in social studies education, New York: Routledge 
        Press, pp. 352--372
VanSledright, B.A. (1995). '' I don't remember--the ideas are all 
        jumbled in my head''--8th graders' reconstructions of colonial 
        American history. Journal of curriculum and supervision, 10, 
        pp. 317--45.
______. (2000). Can ten year olds learn to investigate history as 
        historians do? Organization of American Historians: http://
        www.oah.org/pubs/nl/2000aug/vansledright.html retrieved 
        September 13, 2011
______. (2011). The challenge of rethinking history education: On 
        practices, theories, and policy. New York: Routledge
Vascellaro, S. (2011). Out of the classroom and into the world: 
        Learning from field trips, educating from experience, and 
        unlocking the potential of our students and teachers. New York: 
        New Press
View, J.L. ``Critical Teaching of History: Toward a Human Rights Agenda 
        for Pre and In-Service Teacher Education.'' In Democracy and 
        Multicultural Education. Farideh Salili and Rumjahn Hoosain, 
        eds. Charlotte, NC: Information Age Publishing, 149-172, 2010.
View, J.L. & Schafft, G. (under review). Hidden/Forbidden Stories at 
        Public Sites: Teaching Difficult Histories without Fear and in 
        Age-Appropriate Ways
Waters, T. (2005) Why students think there are two kinds of American 
        history, History teacher, 39, pp. 11-21.
Young, J. (1993). The Texture of Memory. New Haven: Yale University 
        Press.
                                 ______
                                 
    Mr. Bishop. Thank you. I appreciate all of you giving your 
oral testimony as well as the written testimony that is part of 
the record.
    We will now turn to the Committee for questions. Mr. 
Grijalva, if you would like to start off.
    Mr. Grijalva. Thank you, Mr. Chairman. Let me start with 
Dr. View, welcome, let me extend the welcome to your parents 
that accompanied you as well.
    In your written testimony, you discuss memorials as 
sometimes only telling the rosy side of the story of history. 
How do you feel we can better deal with this issue as a nation 
of diverse people that we are?
    Dr. View. In the written testimony, I state that memorials 
tend to be more static than museums that have rolling exhibits, 
and they continue to rethink the nature of the story the museum 
is trying to tell. A memorial tends to be a stone that is sort 
of carved in stone.
    Through interpretation, by committing to having people 
available to help interpret what people are seeing when they 
come to that memorial, it helps to broaden the story.
    As we learn more as historians, gather more data, as the 
kids at a memorial ask the hard questions, it provokes a 
dialogue, it promotes a debate, and helps to broaden our 
understanding of why someone decided 50 years ago it was 
important to put this memorial here, why it continues to stand, 
and what its historical significance is for the future.
    Mr. Grijalva. You mentioned as well the changing role. 
Explain the changing role of informal education in these public 
spaces and places that we have.
    Dr. View. I think I mentioned in my testimony the need for 
humility. When we design and commit to a memorial, we might 
have one vision of its importance, and then as we learn more 
about that part of history or that person in history, we might 
discover new information that needs to be told.
    I do not think we should think of memorials as sort of 
triumphant statements of a story that has ended. It is the 
beginning of a story. That is part of how historians approach 
the nature of their academic work, and certainly educators, 
continuing to learn more information that they share with young 
people.
    I think as builders of memorials and monuments and museums, 
we should be more humble, too, in terms of how we design them, 
how we expect to interpret them, how we share them with future 
generations.
    Mr. Grijalva. Last question, Doctor. It is part of the 
discussion and conversation today--design. Does the design 
impact the ability to broaden the conversation about a 
memorial, to make it as you said more than stone?
    Dr. View. Necessarily so. I think to the extent we can 
build into the design the kind of interpretation that we are 
talking about, the kinds of educational opportunities I am 
talking about, that makes sense.
    Technologies change, so then we revisit the design, or if 
we are stuck with a bad design, that begins a conversation as 
well. That begins a debate as well. Why was this designed the 
way it was designed, how could it better represent the history 
that we are trying to tell?
    It is all part of an ongoing conversation. I do not think 
we should ever see any of these things as permanent and static 
and immovable, lacking any opportunity of deepening our 
understanding.
    Mr. Grijalva. Yes, possibly do not get trapped in one 
cookie cutter?
    Dr. View. Exactly.
    Mr. Grijalva. Thank you. Mr. Luebke, the Trust for the 
National Mall is preparing all this extensive work on the Mall, 
on the grounds itself. How is your organization engaged so that 
there is a smooth process that occurs during this work?
    Mr. Luebke. I am sorry. I missed the key phrase. Could you 
repeat the question?
    Mr. Grijalva. The extensive amount of work on the Mall that 
we are preparing for, how are you engaged to ensure there is 
going to be a smooth process?
    Mr. Luebke. The Commission of Fine Arts, of course, reviews 
these projects as they come to us through our review process.
    We also participate extensively with the Park Service and 
other agencies in discussing all these projects in some minute 
detail all the way through, well before it actually even comes 
before the Commission for review.
    With our partners such as NCPC, the District of Columbia's 
Historic Preservation Office, a lot of issues are actually 
vetted in terms of historical preservation values, 
environmental impact.
    I think generally we are trying to assess, the Commission 
of Fine Arts perhaps more so, how these elements fit into a 
larger continuity of design of the national capital, 
particularly the Mall.
    I guess the answer is everything that is being proposed is 
eventually going to be coming through fairly close scrutiny in 
all steps of the process.
    Mr. Grijalva. Thank you. Thank you, Mr. Chairman.
    Mr. Bishop. I have a few questions as well. Mr. Whitesell, 
once again, we welcome you here. You are the representative of 
the National Park Service, so in some respects, you are going 
to have to pay for the sins of your agency.
    In April 2009, I requested documents that related to the 
operations of the Grand Canyon National Park. Subsequently, the 
Administration withheld 399 pages from us, erroneously citing a 
FOIA exemption.
    I along with Chairman Hastings requested those same 399 
pages last month and requested they be delivered today.
    Do you have the 399 pages we requested three years ago?
    Mr. Whitesell. I do not, sir. I understand the Department 
has received the request and they are in the process of 
reviewing it.
    Mr. Bishop. Is it another three years we are waiting then? 
We only have two year terms here.
    Mr. Whitesell. I understand.
    Mr. Bishop. On April 5 of this year, I sent a written 
request as a follow up to our hearing on the Eisenhower 
Memorial. When am I going to receive a response to those 
questions?
    Mr. Whitesell. I will check and will be happy to get back 
to you, sir.
    Mr. Bishop. Once again, we only have two year terms. Let me 
ask another question that deals with the Commemorative Works 
Act.
    What are the risks of exempting the CWA in the process of 
Mall proposals?
    Mr. Whitesell. I am sorry?
    Mr. Bishop. What are the risks of exempting CWA in the 
process of reviewing Mall proposals?
    Mr. Whitesell. I think we would be in a position where 
Congress would be asked to have to evaluate these without the 
benefit of having the input of the Commission of Fine Arts and 
National Capital Planning Commission.
    The result would be, I suspect, tying up Congress in 
endless number of hearings and comments that are currently 
handled through administrative processes.
    Mr. Bishop. Let me follow up on that with Mr. Bryant at the 
same time. Could you just elaborate on the significance of the 
reserve and why the 2003 amendment to the CWA was important to 
the future of the Mall?
    Mr. Bryant. Reflecting on your own comments, Mr. Chairman, 
you found it important that for the National Mall, not only 
that we reserve the open space and respect the nature of it 
from past generations but we also look to reserve for future 
generations and their memorials.
    In our process, building on what Mr. Whitesell said, when a 
project comes before us, under the law, under CWA, there is 
mandated an early consultation process with stakeholders. You 
have to do that.
    When a project comes before the National Capital Planning 
Commission, it is a multi-tiered process. First, they come to 
us with a conceptual design where they get feedback and the 
public can also respond.
    They come back months later with a refined concept for 
preliminary approval, where the public gets to respond and 
provide feedback as well.
    Perhaps months later, they come back to us a third time for 
a final approval.
    Each step along the way, they get feedback. We have a staff 
of 45 architects, engineers, planners, historic preservation 
specialists and others.
    Following up on Mr. Whitesell's comment, what is at risk is 
perhaps you not having that level of expertise and months and 
months of months of technical interaction.
    Mr. Bishop. How long does that process usually take? I know 
we are talking about longer than two year terms, are we not?
    Mr. Bryant. Yes, four times that. The average for a 
memorial to be approved is about eight years. Of course, that 
depends on a number of factors, how complex it is, how big it 
is, how controversial it might be, as well as funding, mix of 
public versus private funding.
    If there is a significant amount of private funding, you 
get into fund raising and anything can impact that.
    Mr. Bishop. Mr. Luebke, can I ask the basic general 
question to you as well on the CWA process, how can exemptions 
from that Act have unintended consequences?
    Mr. Luebke. I think it is an excellent question, Mr. 
Chairman. The Commemorative Works Act establishes sort of a 
litany test and a process for all applicants to go through. The 
proposal is actually measured against that law.
    The Memorial Advisory Commission considers each of these 
and then returns to Congress with advice.
    The danger is, I think, it probably is best described as a 
hazard of precedent setting that undermines the very intent of 
the law, to control and be very careful about what is 
authorized and gets placed in this incredibly important 
national setting.
    The issue is it may feel cumbersome. It is trying to be a 
one-size-fits-all process for a range of memorials, which might 
go from a plaque to a huge national war memorial.
    It has some flexibility to accommodate this kind of change 
in scope.
    I think really the issue is running around an existing body 
of regulations makes it very difficult to enforce it later.
    Mr. Bishop. Thank you. I appreciate that. I have some other 
questions but my time has expired. I will come back again.
    Mr. Grijalva?
    Mr. Grijalva. Thank you, Mr. Chairman.
    Mr. Shubow, you seem to be ignoring the National Capital 
Planning Commission, the Commission of Fine Arts, in your 
recognition and your comments regarding the Mall.
    Can you give me some of the reasons for your plan to ignore 
the work of these other organizations?
    Mr. Shubow. I do not intend to ignore them at all. In fact, 
I would rely on some of their great successes in the past, and 
in its earliest years, the Commission of Fine Arts was the main 
institution stewarding the McMillan plan.
    In fact, one of their great successes was opposing the 
first design for the Franklin Delano Roosevelt Memorial, which 
were 150 foot concrete slabs that looked like instant stone 
hedge.
    At the time, the Commission of Fine Arts still understood 
the importance of the classical tradition in D.C., and we 
believe they could do so again.
    Mr. Grijalva. Presently, you feel they do not?
    Mr. Shubow. It is a mixed bag. Sometimes they weigh in 
appropriately and sometimes I think they ignore that classical 
tradition. This is representative of unfortunately some 
fashionable trends in the world of art and architecture.
    Just think of how you go to an art museum and you see a 
shark in formaldehyde. There is something similar going on in 
the world of architecture and the Commission of Fine Arts 
sometimes reflects that unfortunate mainstream.
    Mr. Grijalva. Running the risk of being out of touch, let 
me ask another question. Some of the monuments that you propose 
in this retro classic style that you think is the only way to 
go, how are these inclusive and how do they tell the story of 
America today?
    I understand when you memorialize someone, it is admiration 
and a level of hero worship.
    How do we see the complexity of these people? The issue of 
style and design, how do we deal with those two questions, to 
be more inclusive and to deal with the complexity of what we 
are trying to memorialize and keep as part of our nation's 
legacy here on this Mall?
    Mr. Shubow. I would note that the classical tradition is 
extremely inclusive. Examples of this are the African American 
Civil War Memorial, the Statute of Freedom at the top of the 
Capitol Dome, which is inspired by Native American tradition. 
Likewise, the Crazy Horse Monument.
    All of these speak to our ideals, and I would say our 
tradition is the best one for memorializing our greatest 
figures.
    In contrast to what Dr. View said, I would think that for 
certain figures, such as Lincoln, Washington, Jefferson, 
Eisenhower, we do not want too much disagreement in our 
memorials. We want to say a few simple things, that we should 
honor them and reflect on what they did for us.
    What we do not want to see is the so-called ``brown bag 
memorial'' where every visitor brings whatever interpretation 
they want to it.
    Mr. Grijalva. This debate is endless. I yield back.
    Mr. Bishop. Let me follow up on it, if I could, Mr. Shubow. 
The Commemorative Works Act does not require classicism. Do you 
believe the Act should be amended to do that?
    Mr. Shubow. Well, first I would say it does require 
classicism. In fact, one thing that has not been mentioned by 
the other panelists is the implicit purpose of the 
Commemorative Works Act, if I may quote, ``The purpose of this 
chapter is to preserve the integrity of the comprehensive 
design of the L'Enfant and McMillan plans for the nation's 
capital.''
    Since those designs are classical, there is no doubt that 
the Commemorative Works Act requires future buildings to be 
classical.
    Mr. Bishop. Thank you. Dr. View, this is almost a flippant 
question. You made a good point when you said the question was 
why was Vietnam done before World War II.
    Mr. Grijalva and I both have no answer to that. Do you have 
an answer to it?
    Dr. View. I am afraid I do not.
    Mr. Bishop. Darn good question. Thank you. Let me go back 
if I could to Mr. Bryant just for a second.
    As you know, the design for the Eisenhower Memorial, for 
example, is becoming increasingly controversial.
    In the CWA process, it requires or uses the term 
``consensus'' and the concept of what is durable.
    Can you make some observations that can help Congress to 
improve its authorizing process in the future based on the 
lessons we have learned from this controversy?
    Mr. Bryant. Yes. It does encourage consensus, and we as a 
commission have constantly been concerned about the consensus, 
and encouraging consensus among the parties.
    We have been pleased that the dialogue has continued. At 
one point, the Eisenhower Memorial application may have been 
before us several months ago, but has been delayed so the 
parties could continuing talking.
    You are correct that part of the Commemorative Works Act 
has us look at the durability of materials, and that is one 
question that I personally had, as to how these materials will 
stand up in a life cycle analysis and over the test of decades.
    The architects are continuing to work and to test the 
materials to answer those questions.
    The last part of your question is what can we learn from 
this process and how can it be perhaps improved. There has been 
a Joint Task Force on Memorials. It worked from 2000 to 2002 to 
answer or review that very question, how can the process be 
continually improved.
    One of the recommendations coming out of that task force 
was indeed to create a reserve. We are concerned about over 
building on the Mall, create the reserve where no additional 
monuments can be built.
    That was an example of the process improving from the task 
force.
    I would submit that if you are looking for a vehicle to 
construct a dialogue about continuing to improve the process, 
that task force may be a good vehicle to do so.
    Mr. Bishop. Realizing I am running out of time, are there 
additional suggestions of that task force that have not been 
implemented?
    Mr. Bryant. I would have to get back to you on that.
    Mr. Bishop. If you would, I would appreciate it.
    Let me follow up, Mr. Luebke, on the point you made earlier 
about the concept of durability. How indeed does one measure 
durability as required by the CWA?
    Mr. Luebke. Well, that is a question that is fundamentally 
a technical one, which would be answered through materials 
studies. If you are referring to the Eisenhower Memorial, of 
course, this kind of thing is being undertaken.
    It is less of an issue when you are talking about building 
with solid masonry, for example, as opposed to other materials, 
glass, other metals, et cetera.
    I did want to make a point that the Commission does not 
actually determine the style of what comes before it. It is a 
review agency. Therefore, it is not in a position--I do not 
think the Commission considers itself as imposing a style, 
although it does defend the resources that we have, many of 
which are classical.
    The other point, Mr. Chairman, that I think is very 
important to make, and I know it is unpleasant sometimes, but 
all these national memorials, almost all, are incredibly 
controversial, usually involving years of debate.
    This is true of the Lincoln Memorial. President Roosevelt 
had intervened on the Jefferson Memorial. Roosevelt's own 
memorial took 38 years to come to a successful completion.
    We are sort of used to the idea that there is going to be a 
debate, and in some ways I think the debate is probably healthy 
for our democracy.
    Mr. Bishop. I would agree with that last statement, it 
probably is healthy.
    Mr. Grijalva has no more questions. Let me just go over my 
time limit here and ask a couple more and then we can probably 
conclude this.
    Mr. Shubow, if I could follow up on that as far as the 
question about the process, especially when you consider the 
Eisenhower project, have you all determined where in the 
process a change could be made to trigger a more desirable 
design outcome? I do not know if that makes sense to you.
    Procedurally, has your group procedurally said we are in 
the process, we could make some kind of change to trigger those 
changes?
    Mr. Shubow. Sure. There are a few cases where that could 
take place. The Commission of Fine Arts could follow its noble 
tradition and find that the memorial is discordant with the 
best of Washington's monuments. They have done so repeatedly in 
the past and they can do so again.
    There is no way you could describe this post-modern design 
as fitting in with the rest of the National Mall.
    Another way that this process could be resolved happily is 
for the National Capital Planning Commission or the Commission 
of Fine Arts to find that the memorial's materials are not 
permanent, as is required by the statute authorizing a 
memorial.
    One of the main if not the main feature of the memorial is 
an enormous steel screen. Steel is not as permanent as say 
stone, and even the architects and the Eisenhower Memorial 
Commission, who were behind it, have said they are doing 
testing to ensure that the screen lasts 100 years.
    Well, 100 years is far short of permanent. In addition, the 
screen will acquire extensive maintenance to make sure it is 
durable throughout the ages.
    Mr. Bishop. Let me try to zero in just a little bit more on 
that question. I only have a couple more for Mr. Whitesell and 
I will be done.
    Where in the path of making the decisions, leading up to 
those decisions, could have been a time when you could impose a 
change in the process so you could have changed the direction 
the design process was going? I am asking a procedural question 
here.
    Mr. Shubow. I would say if you go all the way back to the 
original statute authorizing the memorial, and in fact, when 
Congress authorized the FDR Memorial, they specifically said it 
must be harmonious with the Lincoln, Jefferson, and Washington 
Monuments.
    Something like that would have solved these problems.
    Mr. Bishop. Thank you. I realize I am asking a convoluted 
question and I am not stating it very well. I appreciate your 
response to that.
    Mr. Whitesell, I have two last questions for you. The first 
one deals with the work you are doing on the Mall right now. I 
realize you are doing considerable work on the Mall turf, which 
has had an unusually detrimental impact on my softball season 
this year.
    [Laughter.]
    Mr. Bishop. I would simply like to know when it is going to 
be completed and actually will it benefit the games in the 
future.
    Mr. Whitesell. The current work on the Mall turf is only a 
portion of that envisioned for that project. The piece that is 
underway right now is from 3rd to 7th Street. That is supposed 
to be completed by the end of this calendar year.
    As to how it will affect your softball game, I cannot say, 
sir.
    Mr. Bishop. At my age, nothing can improve my game.
    [Laughter.]
    Mr. Bishop. The playing conditions are the significant 
part. Could you just give us a brief update on previously 
authorized Mall programs?
    Mr. Whitesell. In terms of construction projects?
    Mr. Bishop. Where they are in the process.
    Mr. Whitesell. For instance, the Reflecting Pool is under 
reconstruction right now, and should be completed by the first 
week in August, according to the engineers on that project.
    We are in the process of developing the plans for the 
restoration and rehabilitation of the Washington Monument, 
which of course was damaged by last year's earthquake.
    Those are the two principal ones that are underway.
    Mr. Bishop. Ms. Noem, I appreciate you joining us here. Did 
you have any questions?
    Mrs. Noem. No, thank you, Mr. Chairman.
    Mr. Bishop. Thank you for being part of this hearing.
    I want to thank the witnesses for their testimony. I ask 
all the witnesses to be prepared to respond in writing to any 
questions that may be submitted by members of the Subcommittee 
in a timely fashion.
    I further ask--I do not further ask because we do not have 
that part in my agenda--we are done here.
    Without objection and without further questions or further 
business, this Committee stands adjourned.
    [Whereupon, at 11:08 a.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

Statement submitted for the record by Representative Sam Farr (CA-17), 
           Returned Peace Corps Volunteer, Colombia, 1964-66

    Thank you to Chairman Bishop and Ranking Member Grijalva for the 
opportunity to submit my testimony in support of H.R. 854, the Peace 
Corps Commemorative legislation. I represent California's 17th District 
and I was a Peace Corps Volunteer in Medellin, Colombia. I introduced 
this bill with Returned Peace Corps Volunteer Members of Congress 
Representatives Thomas Petri (WI-6) who served in Somalia, Mike Honda 
(CA-15) who served in El Salvador, and John Garamendi (CA-10) who 
served in Ethiopia.
    The Peace Corps Commemorative legislation is a cost-free, 
bipartisan bill that authorizes the non-profit Peace Corps 
Commemorative Foundation to establish a modest commemorative on Federal 
land in our nation's capital to honor the formation of the Peace Corps 
and the ideals of world peace and friendship upon which it was founded. 
The founding of the Peace Corps was a seminal moment in American 
history that deserves recognition in our nation's capital.
    The historic L'Enfant and McMillan Plans for the nation's capital 
provided a blueprint for the City of Washington to evolve as an 
enduring symbol of American identity. Peace Corps is the great American 
idea of the 20th century that truly reflects what it means to be an 
American--in service to our nation for the betterment of humankind. It 
is an important component of our national identity that reflects our 
highest value of peace. This ideal deserves to be honored here in the 
capital of the United States, and passage of H.R. 854 would make that 
possible.
    Fifty-one years ago, President Kennedy ushered in a new era of 
American service when he signed the Executive Order establishing the 
Peace Corps: ``Our Peace Corps is not designed as an instrument of 
diplomacy or propaganda or ideological conflict. It is designed to 
permit our people to exercise more fully their responsibilities in the 
great common cause of world development.'' While the international 
community was fractured by Cold War tensions, the founding of the Peace 
Corps marked a moment in time that reflected the best of what America 
had to offer the world: service to others in the common cause of global 
peace, mutual understanding, grassroots development, and prosperity. 
With the creation of the Peace Corps, America showed the world that we 
are a partner for progress, a new kind of force in the world guided by 
peace and goodwill. Our country has never been the same and the world 
was changed--for the good--forever.
    As historian Doris Kearns Goodwin noted, the founding of the Peace 
Corps ``has produced an enduring legacy of service in the cause of 
peace, a timeless symbol of America's most honorable ideals and 
aspirations.'' Over the past 51 years, through war and conflict, nearly 
a quarter million Americans from all 50 states have served in 139 
developing countries, embodying the timeless American ideals of 
goodwill, friendship, prosperity, and progress. Today, the 9,095 Peace 
Corps Volunteers serving in 75 developing countries continue to live 
out these ideals and demonstrate the enduring significance of Peace 
Corps' founding. A modest commemorative on Federal land is an 
appropriate way to mark the moment that America formally established 
its commitment to service in the cause of peace.
    Peace Corps was profoundly meaningful in my life as well. It gave 
me purpose; it focused my heart and mind on the problems associated 
with the culture of poverty, abroad and here at home. But it will not 
just be the 200,000 Returned Volunteers or the millions of family 
members and friends of Peace Corps Volunteers who will be able to 
reflect on this great American idea with this commemorative. Peace 
Corps Volunteers have partnered with tens of millions of individuals 
around the world, and this commemorative honors the moment in American 
history when those important partnerships and bonds of friendship first 
began.
    As President Kennedy said in his last State of the Union address, 
``Nothing carries the spirit of American idealism and expresses our 
hopes better and more effectively to the far corners of the earth than 
the Peace Corps.'' It is now time that we have that idealism expressed 
in our nation's Capital as well.
    This legislation has robust support both inside and outside of 
Congress. H.R. 854 has 156 bipartisan cosponsors; over a third of the 
House of Representatives wants to see this legislation enacted. But 
this legislation has also been favorably reviewed by the National 
Capital Memorial Advisory Commission. In addition, on October 4, 2011, 
at this Subcommittee's hearing on H.R. 854, Stephen Whitesell, National 
Capital Region Regional Director for the National Park Service (NPS), 
stated in his testimony: ``We [NPS] share the [National Capital 
Memorial Advisory] Commission's support for the idea of commemorating 
volunteerism and international cooperation as worthy ideals and 
practice of the Peace Corps.''
    In addition, S. 1421, similar bipartisan legislation introduced by 
Senators Portman and Mark Udall, passed the Senate Energy and Natural 
Resources Committee by voice vote on November 11, 2011. Clearly, there 
is robust bicameral, bipartisan support for passage of this 
legislation.
    As you may know, this bill is a re-introduction of H.R. 4195, which 
passed out of the Natural Resources Committee by unanimous consent and 
passed the full House of Representatives by voice vote in the 111th 
Congress. The only modifications to this bill in the 112th Congress are 
the inclusion of a Findings Section and the addition of ``ideals of 
world peace and friendship'' to reflect the National Capital Memorial 
Advisory Commission's suggestion that the legislation specify the 
ideals that the commemorative honor. At this Subcommittee's October 
4th, 2011 hearing, NPS noted that the changes further strengthened the 
legislation. This bill is in compliance with the Commemorative Works 
Act, and Congress has the power to enact this legislation pursuant to 
Article I, Section 8, and Article IV, Section 3 of the United States 
Constitution.
    Now is an opportune time to honor and recognize on the National 
Mall the enduring ideals of world peace and friendship embodied in the 
founding of Peace Corps. I respectfully request the Subcommittee's 
support of this legislation to honor America's enduring commitment to 
world peace and friendship.
    Thank you.

                                 <all>

</pre></body></html>
